 OFFICE OF JUSTICE PROGRAMS AWARDS TO 

JUSTICE GRANTS ADMINISTRATION: EDWARD 

  BYRNE MEMORIAL STATE AND LOCAL LAW 

ENFORCEMENT ASSISTANCE GRANT PROGRAM 




       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


       Audit Report GR-30-10-002
               June 2010
This Page Left Intentionally Blank
                        EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant (JAG) Program,
Grant No. 2008-DJ-BX-0004 in the amount of $872,084, and the Recovery
Act Edward Byrne Memorial Justice Assistance Grant Program State
Solicitation, Grant No. 2009-SU-B9-0006 in the amount of $11,741,539,
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), to the Washington, D.C. Justice Grants Administration
(JGA). Since fiscal year (FY) 2006, OJP awarded nearly $20 million in JAG
funds to JGA, the agency responsible for securing and managing federal
grant funds related to juvenile and criminal justice for the District of
Columbia.

       The purpose of the JAG Program is to allow states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their own local needs and conditions. JAG funds can be used
for state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice for any one or more of the following purpose areas:

  • Law enforcement programs

  • Prosecution and court programs

  • Prevention and education programs

  • Corrections and community corrections programs

  • Drug treatment programs

  • Planning, evaluation, and technology improvement programs

  • Crime victim and witness programs (other than compensation)
Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

       As part of the Recovery Act, nearly $2 billion was designated for the
JAG Program. Through Recovery Act JAG funding, the Department of
Justice focused support on all components of the criminal justice system,
including multi-jurisdictional drug and gang task forces; crime prevention
and domestic violence programs; and courts, corrections, treatment, and
justice information sharing initiatives. Recovery Act JAG funded projects
could address crime by providing services directly to individuals and
communities and by improving the effectiveness and efficiency of criminal
justice systems, processes, and procedures.

Audit Results

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting; (8) management
of subrecipients and contractors; (8) Financial Status Reports, Progress
Reports, and Recovery Act Reports; and (9) program performance and
accomplishments.1 We determined that program income and management
of contractors were not applicable to these grants.



       1
          Under the 2008 grant, JGA identified the need to strategically focus on juvenile
crime prevention, prisoner re-entry, and gun and gang violence reduction. To carry out
these efforts, JGA competitively awarded funding to four subrecipients: (1) Court Appointed
Special Advocates of Washington, D.C., (2) East of the River Clergy Police Community
Partnership, (3) Metropolitan Police Department, and (4) Prisoner Outreach Ministry.

                                            ii
      As shown in the table below, since FY 2006 JGA was awarded almost
$20 million to implement the JAG Program. Our audit focused on, but was
not limited to, Grant Nos. 2008-DJ-BX-0004 and 2009-SU-B9-0006.2

   FYs 2006 – 2009 JAG AWARDS TO THE DISTRICT OF COLUMBIA

                                Award Start           Award End               Award
     Grant Award
                                   Date                 Date                 Amount
   2006-DJ-BX-0016               10/1/2005            9/30/2009               $1,804,991
   2007-DJ-BX-0055               10/1/2006            9/30/2010                2,647,465
   2008-DJ-BX-0004               10/1/2007            9/30/2011                  872,084
   2008-DJ-BX-0737               10/1/2007            9/30/2011                   58,826
   2009-DJ-BX-0170               10/1/2008            9/30/2012                2,856,443
   2009-SU-B9-0006
                                  3/1/2009             2/28/2013              11,741,539
     Recovery Act
                                                               Total:      $19,981,348
Source: JGA award documentation

      In addition, we assessed controls over aspects of grant management
to determine whether JGA was adequately prepared to handle nearly
$12 million in 2009 Recovery Act funds.3

     Our audit found that JGA had not met important OJP grant reporting,
expenditure tracking, and monitoring requirements. Specifically, JGA:

   	 Charged the 2008 JAG award over $600,000 in unallowable
      expenditures related to unapproved subrecipients. While these
      unallowable charges were subsequently reversed, we also identified
      multiple subrecipients that were receiving funding from both the 2006
      and 2007 grants but, according to grant documentation, had not been
      approved as subrecipients under the awards. For the 2006 and 2007
      grants, respectively, we noted $45,295 and $6,700 in charges for
      subrecipients not identified as approved subrecipients in the award
      documentation.

   	 Allocated over $317,000 in unsupported administrative costs to the
      2006, 2007, and 2008 JAG awards.



      2
          Our audit objective, scope, and methodology are further discussed in Appendix I.
      3
         We reviewed the 2009 Recovery Act Byrne Grant for expenditures through
December 2009. The District of Columbia did not record any Recovery Act expenditures
during this time period.

                                             iii
   	 Reimbursed subrecipients over $8,000 from the 2008 JAG award for
      costs that were either unsupported or unallowable.

   	 Generally submitted Financial Status Reports (FSRs) to OJP on time,
      but did not accurately report 2008 JAG expenses. While the FSRs
      reflected the information found in the District of Columbia’s official
      accounting records, the 2008 JAG award contained expenditures for
      unapproved subrecipients. As a result, the submitted FSRs did not
      accurately report the 2008 JAG expenses.

   	 Submitted incomplete progress reports to OJP, and did not adequately
      monitor the achievement of JAG Program goals and objectives.

   	 Could not provide documentation justifying or supporting award
      decisions to subrecipients by the former JGA Director. Therefore, we
      were unable to determine whether JGA’s method for awarding sub-
      grants was fair and reasonable.

   	 Submitted required Recovery Act reports in a timely manner, and
      reported no expenditures for the 2009 Recovery Act JAG award.
      However, in the fourth quarter report, JGA reported that 18.85 jobs
      were created as a result of the Recovery Act.4 The Recovery Act report
      submitted by JGA included a duplicate entry of hours worked, and
      therefore did not accurately reflect jobs created for the quarter.

       As a result of these findings, we are concerned with JGA’s ability to
manage the nearly $12 million in Recovery Act funds. Our report contains
20 recommendations. We discussed the results of our audit with JGA
officials and have included their comments in the report as applicable.




       4
           JGA explained that according to Office of Management and Budget Memorandum
10-08, subrecipients are allowed to count a job as created as long as salaries are paid for or
will be reimbursed with Recovery Act funding. Therefore, while JGA reported no
expenditures during the reporting period, subrecipients paid for salaries during the period
and either had not submitted a Request for Reimbursement or the Request for
Reimbursement was not processed before the end of the reporting period.

                                              iv
                                TABLE OF CONTENTS

INTRODUCTION .............................................................................. 1
    
   Recovery Act .............................................................................. 2
 
   Audit Purpose ............................................................................. 2
 
   Background ................................................................................ 3
 
   OIG Audit Approach .................................................................... 4
     
FINDINGS AND RECOMMENDATIONS.............................................. 5
                     
   Internal Control Environment........................................................ 5
        
      Single Audit ........................................................................... 6
 
      Financial Management System .................................................. 6
           
   Drawdowns ................................................................................ 6
  
   Grant Expenditures ..................................................................... 7
    
      Administrative Costs ............................................................... 7
     
      Accountable Property .............................................................. 8
      
      Subrecipient Expenditures ........................................................ 9
       
      Supplanting ......................................................................... 15
   
   Management of Subrecipients ..................................................... 15
          
      Solicitation Process ............................................................... 16
    
      Awards Process .................................................................... 16
     
      Training and Technical Assistance ........................................... 18
           
      Management of Funds ........................................................... 19
         
      Monitoring ......................................................................... 19
    
   Reports ................................................................................... 22

                                                                                                  
      Subrecipient Reporting .......................................................... 22
       
      Financial Status Reports ........................................................ 22
       
      Annual Progress Reports ........................................................ 23
        
      Quarterly Recovery Act Reports .............................................. 24
           
   Program Performance Measures and Accomplishments ................... 26
                       
   Conclusion ............................................................................... 28
 
   Recommendations..................................................................... 29
       
SCHEDULE OF DOLLAR-RELATED FINDINGS ................................. 31
                         
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ............... 32
                                
APPENDIX II - FY 2006 – 2008 JAG PROGRAM ACCOMPLISHMENTS 

     AS REPORTED BY SUBRECIPIENTS ....................................... 34
                     
APPENDIX III - AUDITEE RESPONSE TO THE DRAFT REPORT ....... 37
                                   
APPENDIX IV - OJP RESPONSE TO THE DRAFT REPORT ................ 53
                               
APPENDIX V - ACTIONS NECESSARY TO CLOSE THE REPORT ........ 59
                                   
                              INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant Program, Grant
Award No. 2008-DJ-BX-0004 in the amount of $872,084, and the Recovery
Act Edward Byrne Memorial Justice Assistance Grant Program State
Solicitation, Grant No. 2009-SU-B9-0006 in the amount of $11,741,539,
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), to the Washington, D.C. Justice Grants Administration
(JGA).5 JGA is responsible for securing and managing federal grant funds
related to juvenile and criminal justice for the District of Columbia.

       The Edward Byrne Memorial Justice Assistance Grant (JAG) is a
formula grant program in which the 50 states, the District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
U.S. Virgin Islands are eligible to apply.6 The purpose of the JAG Program is
to allow states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the
following purpose areas:

   • Law enforcement programs

   • Prosecution and court programs

   • Prevention and education programs

   • Corrections and community corrections programs

   • Drug treatment programs

   • Planning, evaluation, and technology improvement programs

   • Crime victim and witness programs (other than compensation)



       5
        Since fiscal year (FY) 2006, BJA awarded nearly $20 million in Edward Byrne
Memorial Justice Assistance Grant funds to JGA.
       6
          Formula grant programs are noncompetitive awards distributed to states based on
a specific funding formula. JAG formula awards are based on a State or Territory’s share of
violent crime and population.
                                             1

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

       As part of the Recovery Act, nearly $2 billion was designated for the
JAG Program. Through Recovery Act JAG funding, the Department of Justice
(DOJ) focused support on all components of the criminal justice system,
including multi-jurisdictional drug and gang task forces; crime prevention
and domestic violence programs; and courts, corrections, treatment, and
justice information sharing initiatives. Recovery Act JAG funded projects
could address crime by providing services directly to individuals and
communities and by improving the effectiveness and efficiency of criminal
justice systems, processes, and procedures.

Audit Purpose

      The purpose of this audit was to determine whether reimbursements
claimed were supported; allowable; and in accordance with applicable laws,
regulations, guidelines, terms and conditions of the grant. The objective of
our audit was to review performance in the following areas: (1) grant
requirements; (2) internal control environment; (3) cash management;
(4) program income; (5) grant expenditures; (6) property management;
(7) supplanting; (8) management of subrecipients and contractors;
(9) Financial Status Reports, Progress Reports, and Recovery Act Reports;
and (10) program performance and accomplishments.7 We determined that
program income and management of contractors were not applicable to
these grants.



       7
          Under the 2008 grant, JGA identified the need to strategically focus on juvenile
crime prevention, prisoner re-entry, and gun and gang violence reduction. To carry out
these efforts, JGA competitively awarded funding to four subrecipients: (1) Court Appointed
Special Advocates of Washington, D.C., (2) East of the River Clergy Police Community
Partnership, (3) Metropolitan Police Department, and (4) Prisoner Outreach Ministry.

                                            2

      As shown in Exhibit 1, from FYs 2006 – 2009, JGA was awarded almost
$20 million in funding under both the JAG and Recovery Act JAG Programs.
Our review focused on, but was not limited to, Grant Nos. 2008-DJ-BX-0004
and 2009-SU-B9-0006.

   Exhibit 1: FYs 2006 – 2009 JAG AWARDS TO THE DISTRICT OF 

                            COLUMBIA 


                            Award Start      Award End            Award
     Grant Award
                               Date            Date              Amount
  2006-DJ-BX-0016            10/1/2005       9/30/2009            $1,804,991
  2007-DJ-BX-0055            10/1/2006       9/30/2010             2,647,465
  2008-DJ-BX-0004            10/1/2007       9/30/2011               872,084
  2008-DJ-BX-0737            10/1/2007       9/30/2011                58,826
  2009-DJ-BX-0170            10/1/2008       9/30/2012             2,856,443
  2009-SU-B9-0006
                              3/1/2009        2/28/2013           11,741,539
    Recovery Act
                                                     Total:     $19,981,348
Source: JGA award documentation

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating state-of­
the-art knowledge and practices across America by providing grants for the
implementation of these crime fighting strategies. To support this mission,
BJA provides leadership and assistance to local criminal justice programs
that improve and reinforce the nation’s criminal justice system, with goals to
reduce and prevent crime, violence, and drug abuse and to improve the way
in which the criminal justice system functions.

       JGA administers grant funds focused on improving programs, policies,
and coordination for Washington, D.C.’s juvenile and criminal justice
systems. By administering grants to governmental units, and nonprofit,
community, and faith-based organizations, JGA aims to enhance the criminal
justice system, improve public safety, support crime victim services, and
support drug and violence prevention programs throughout Washington,
D.C.




                                      3

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the award. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars.8 Specifically, we tested whether JGA complied with the
following grant requirements:

   	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grants.

   	 grant drawdowns to determine if JGA was managing grant 

      receipts in accordance with federal requirements;


   	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

   	 management of subrecipients to determine how JGA 

      administered pass-thru funds; 


   	 Financial Status Reports, Progress Reports, and Recovery
      Act Reports to determine if the required Financial Status Reports,
      Progress Reports, and Recovery Act Reports were submitted on
      time and accurately reflect grant activity; and

   	 grant objectives and accomplishments to determine if JGA met
      or is capable of meeting the grants’ objectives.

      In addition, we assessed controls over aspects of grant management
to determine whether JGA was adequately prepared to handle nearly
$12 million in 2009 Recovery Act JAG funds.9 The results of our analysis are
discussed in detail in the Findings and Recommendations section of the
report. Our audit objective, scope, and methodology are discussed in
Appendix I.

       8
          The Financial Guide serves as a reference manual that assists grant award
recipients in their fiduciary responsibility to safeguard awarded funds and ensure funds are
used appropriately.
       9
         We reviewed the 2009 Recovery Act JAG award for expenditures through
December 2009. The District of Columbia did not record any Recovery Act expenditures
during this time period.
                                              4

           FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

     JGA had not met important OJP grant reporting, expenditure
     tracking, and monitoring requirements over 2008 JAG funds.
     Although all grant expenditures must be allowable and supported
     with adequate documentation, the audit identified over $324,000
     in unsupported costs, mostly pertaining to the 10 percent
     administrative costs JGA charged the 2006, 2007, and 2008 JAG
     awards. Our audit also found that JGA charged the 2008 JAG
     award over $600,000 in expenditures related to unapproved
     subrecipients. While these unallowable charges were
     subsequently reversed, we also identified multiple subrecipients
     that were receiving funding from both the 2006 and 2007 grants
     but, according to grant documentation, had not been approved
     as subrecipients under the awards. For the 2006 and 2007
     grants, respectively, we noted $45,295 and $6,700 in charges
     for subrecipients not identified as approved subrecipients in the
     award documentation. In our judgment, this, in addition to not
     being able to support administrative charges, highlights a lack of
     rigorous controls over the JAG awards. JGA also did not
     accurately report the financial status of the 2008 award, and the
     annual progress reports submitted to OJP were not always timely
     and were often incomplete. While JGA conducted subrecipient
     monitoring on an annual basis, the reviews were not always
     complete, and JGA never followed up on recommendations. As a
     result of these weaknesses, we are concerned with JGA’s ability
     to manage the nearly $12 million in Recovery Act JAG funds.

Internal Control Environment

      We reviewed Washington D.C.’s Single Audit Report and financial
management system to assess JGA’s risk of noncompliance with laws,
regulations, guidelines, and terms and conditions of the grant. We also
interviewed individuals from Washington D.C.’s Office of the Chief Financial
Officer (OCFO) regarding payroll, purchasing, and reimbursements to further
assess risk.




                                     5

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. Washington D.C.’s fiscal year (FY)
is from October 1 through September 30, and for FY 2008 the District of
Columbia was required to conduct a single audit. We reviewed the FY 2008
Single Audit Report for the District of Columbia and found that the audit
indicated overarching material weaknesses, significant deficiencies, and
noncompliance material to the financial statements as of September 30,
2008. There were 124 findings in the FY 2008 Single Audit Report;
however, none of the findings related to the JAG awards, any other DOJ
grant, or the DOJ as a whole. While none of the deficiencies relate directly
to JGA or DOJ, we reviewed the auditor's assessment to identify control
weaknesses and significant noncompliance issues. The auditor’s assessment
disclosed the following weaknesses overall for the District of Columbia that
we determined may be pertinent to JGA’s administration of the JAG
Program: (1) investment and cash counts were not reconciled timely;
(2) lack of segregation of duties within People Soft (payroll system);
(3) noncompliance with procurement regulations; (4) inadequate monitoring
of subrecipients; (5) inadequately supported time charges; (6) inaccurate
Financial Status Reports; and (7) journal entries not supported by adequate
documentation to help determine whether the underlying transactions were
allowable under the grant.

Financial Management System

      JGA’s official accounting is completed at the District of Columbia’s
OCFO, and the official accounting records are maintained in the System of
Accounting and Reports (SOAR). The OCFO receives reimbursement request
information from JGA, conducts a limited review and processes the
information in the SOAR. The OCFO explained that information for grant
Financial Status Reports is pulled from the SOAR. See the Reports section
for more details and findings on the Financial Status Reports.

Drawdowns

      JAG award recipients are permitted to draw down the entire award
amount in a lump sum and place the funds in an interest-bearing account.
According to grant documents, JGA was required to meet special conditions,
including establishing a trust account to deposit and maintain JAG funds.
The OCFO explained that because all of JGA’s drawdowns are done on a
reimbursable basis, they never established a separate trust account for JAG
funds. Further, according to the OCFO, they do not plan on establishing a
                                       6

separate trust account for the Recovery Act JAG funds. While we understand
that JGA operates on a reimbursable basis, nevertheless approval was never
obtained from OJP and an exemption from this special condition was not
documented in the grant file. Therefore, we recommend that OJP work with
JGA to ensure compliance with this special condition.

Grant Expenditures

       The OJP Financial Guide also serves as a day-to-day management tool
for award recipients and subrecipients in administering grant programs by
establishing the factors affecting the allowability, reasonableness, and
allocability of both direct and indirect costs charged to DOJ grants. Exhibit 2
displays the type of cost, the total value of the expenditures in each
category, and the amount of unsupported or unallowable costs our testing
identified.

       EXHIBIT 2: SUMMARY OF JAG CHARGES AND RESULTS OF
                           TESTING10

                     Total Costs    Sampled    Unsupported              Unallowable
     Category
                      Charged        Costs        Costs                    Costs
                                 2006 JAG Award
  Administrative          $92,292      $92,292      $92,292                       $0
  Unapproved
                           45,295          45,295                   0        45,295
  Subrecipient
                                 2007 JAG Award
  Administrative          190,611      190,611               190,611               0
  Unapproved
                             6,700          6,700                   0         6,700
  Subrecipient
                                 2008 JAG Award
  Administrative           87,208       87,208                34,572               0
  Accountable
                                 0               0                  0              0
  Property
  Subrecipient            283,208        189,821               6,536          1,500
            Total      $705,314        $611,927           $324,011         $53,495
Source: SOAR report, Subrecipient financial reports, and OIG analysis

Administrative Costs

      The JAG Program allows each prime award recipient to charge up to 10
percent of the award amount for labor expenses, office supplies, accounting
fees, consulting fees, storage, and website services. This means that the

      10
         JGA did not expend funds awarded through the supplemental 2008 JAG (Award
No. 2008-DJ-BX-0737). Therefore, this grant was not included as part of our testing.
                                           7

2008 JAG award authorized JGA to allocate up to $87,208 for these types of
administrative costs. We reviewed all of JGA’s 2008 JAG expenditures,
which included only personnel costs, and found that JGA charged $87,208 to
the grant.

      To determine if JGA personnel charges were supported and allowable,
we obtained a listing of all personnel who had labor charged to the grant and
compared the list to percentage allocation spreadsheets provided by JGA.
We found that only JGA employees were allocating time to the 2008 JAG
award; however, JGA could only provide supporting documentation for
$52,636 of the $87,208 in administrative costs. JGA officials could not
explain the $34,572 difference, stating that all personnel and benefit
expenditures should reconcile to amounts reported on the grant allocation
spreadsheets maintained by JGA. Despite JGA’s submission of these
spreadsheets to its OCFO, the OCFO instead charged 10 percent of the
award for salaries and benefits. JGA officials indicated that only the $52,636
reported on the allocation spreadsheets was supported. Therefore, we
recommend OJP require that JGA establish procedures for the allocation of
administrative costs, and remedy $34,572 in unsupported costs.

      As a result of the discrepancy noted above, we reviewed the personnel
costs charged to the 2006 and 2007 JAG awards and attempted to compare
the amount expensed to the allocation spreadsheets completed by JGA. JGA
could not provide supporting documentation for the 2006 and 2007 JAG
awards administrative payroll expenses and were unaware of how previous
JGA officials calculated these costs. Therefore, because the supporting
documentation was not available, we question $92,292 and $190,611 in
administrative charges under the 2006 and 2007 JAG awards, respectively.
We recommend OJP remedy the $282,903 in unsupported costs.

Accountable Property

      The Financial Guide requires that property acquired with federal funds
be adequately protected from loss. It also states that grant recipient and
subrecipient property records must be maintained and include, at a
minimum, a description of the property, serial number or other identification
number, location of the property, and records that indicate the use and
condition of the property. After multiple requests for a list of accountable
property purchased with the 2008 JAG award, JGA advised that they do not
maintain a property inventory list. Although we were able to verify that no
accountable property was purchased using 2008 JAG funds, we remain
concerned over the lack of an inventory system as well as the inability to
meet the Financial Guide requirements mentioned above. Therefore, we
recommend OJP require that JGA implement policies and procedures for
                                       8

maintaining an inventory of accountable property and equipment that meets
the Financial Guide requirements.

Subrecipient Expenditures

      To accomplish the JAG goals and objectives, about 55 percent, or
$483,950 of the total grant was awarded to four subrecipients throughout
Washington, D.C. The four subrecipients were the Court Appointed Special
Advocates for Children of Washington, DC (CASA), East of the River Clergy
Police Community Partnership (ERCPCP), Metropolitan Police Department
(MPD), and Prisoner Outreach Ministry (POM).

      To determine the amount charged to the grant by JGA and the
approved subrecipients, we reviewed the SOAR records. We found that
although JGA awarded $483,950 in grant funds to the four approved
subrecipients, expenses totaling $651,234 were charged by five unapproved
subrecipients, as summarized by Exhibit 3.




                                    9

        EXHIBIT 3: COMPARISON OF 2008 SUBRECIPIENT AWARD
         AMOUNTS AND EXPENDITURES AS OF SEPTEMBER 2009

                                                                 Award              Charged
                    2008 Subrecipients
                                                                Amount              Amount
Approved Subrecipients

Court Appointed Special Advocates                                   $100,026             $44,622

East of the River Clergy Police Community Partnership                115,924              35,104
– Woodland Terrace Youth Intervention Program

Metropolitan Police Department                                       160,000             159,527

Prisoner Outreach Ministry                                           108,000              43,955

Subtotal for Approved Subrecipients                               $483,950             $283,208

Unapproved Subrecipients

D.C. Courts                                                                $0            $65,000

Superior Court of D.C.                                                      0            384,781

P.C.S. for Student Support Services                                         0            125,019

Executive Office of the Mayor                                               0               1,393

East of the River Clergy Police Department                                  0             75,041
Community
Partner – “Other” program

Subtotal for Unapproved Subrecipients                                      $0          $651,234

                                                    Total         $483,950             $934,442
Source: OJP Grant award and Subrecipient grant award documentation


        We discussed with JGA’s OCFO and other JGA grant officials the
payments to the unapproved subrecipients. We were told that these charges
were posted to the 2008 JAG award because budgets were not loaded for
other grants.11 JGA and the OCFO reversed some of the charges prior to the
initiation of our audit, and completed the remainder of the reversing charges
by January 2010 as a result of this audit.



_________________________

        11
           Two of the unapproved subrecipients, P.C.S. for Student Support Services and ERCPCP,
were recipients of 2007 JAG funding. Because the $200,060 was posted incorrectly to the 2008 JAG
award, we are concerned that the 2007 JAG award could have been overspent had the charges been
posted to the correct grant.


                                               10
       Because JGA did not identify all of the unallowable charges in their
reconciliation of the 2008 JAG expenditures to approved subrecipients, we
reviewed a listing of approved subrecipients for the 2006 and 2007 JAG
awards. We compared this list to the respective SOAR report to identify
whether unapproved subrecipients received JAG funding. We identified
multiple subrecipients that were receiving funding from both the 2006 and
2007 grants but, according to grant documentation, had not been approved
as subrecipients under the awards. For the 2006 and 2007 grants,
respectively, we noted $45,295 and $6,700 in charges for subrecipients not
identified as approved subrecipients in the award documentation.

       Our audit found that JGA has a limited review process for monitoring
the financial aspects of the grants to ensure that only approved
subrecipients and authorized charges are posted to the grants. As a result,
we are concerned that approved subrecipients may not be fully benefiting
from DOJ JAG funds made available to JGA, and that these funds may have
been used for purposes not approved under the JAG awards. Therefore, we
recommend OJP require that JGA implement a formal process for reviewing
and reconciling grant expenditures in a timely manner. We also recommend
that OJP remedy unapproved charges of $45,295 to the 2006 JAG award,
and $6,700 to the 2007 JAG award.12

      We also selected a judgmental sample of 81 expenditures totaling
$189,821 from the four approved subrecipients to determine whether the
charges that were posted to the grant were allowable and in accordance with
grant requirements. We reviewed supporting documents and spoke with
JGA and subrecipient officials about how they incurred, approved, and paid
for these costs. Exhibit 4 summarizes the sampled expenditures and the
results of our testing.




     12
          As of September 30, 2009, the 2006 JAG award budget period ended.
                                          11
                  EXHIBIT 4: SUMMARY OF TESTING OF 

                     SUBRECIPIENT EXPENDITURES


                                  Sampled        Unsupported   Unallowable
     2008 Subrecipients
                                   Costs            Costs         Costs
   Court Appointed Special
   Advocates for Children
                                    $21,867           $4,094        $1,500
   of Washington, D.C.
   (CASA)
   East of the River Clergy
   Police Community                  10,014              716             0
   Partnership (ERCPCP)
   Metropolitan Police
                                    143,211              585             0
   Department (MPD)
   Prisoner Outreach
                                     14,729            1,141             0
   Ministry (POM)
                      Total      $189,821             $6,536        $1,500
  Source: JGA Expenditure listing and OIG analysis.

     Court Appointed Special Advocates for Children of Washington, D.C.

      In 2008, $100,026 was awarded to CASA in support of the Dual Jacket
Program. The Dual Jacket Program allows volunteers to be advocates on
behalf of a foster youth who has been placed in the child welfare system
because of abuse or neglect, subsequently arrested for a crime, or placed in
the juvenile justice system. These volunteers enhance coordination amongst
agencies, organizations, and individuals providing services to these youths.

      CASA’s direct expenses submitted to JGA through September totaled
$44,622 and were primarily used for salaries and benefit expenses,
accounting fees, communication, contract labor, and computer expenses.
JGA approved all of the selected transactions and subsequently reimbursed
CASA for expenditures that were not always properly supported and
allowable. As noted in Exhibit 5, we found over $4,000 in expenses that
were not adequately supported.




                                          12 

           EXHIBIT 5: UNSUPPORTED CASA EXPENDITURES 


                                                  Transaction
           Unsupported Expenses                                 Amount
                                                      Date
  Consulting - Danbury Group                        5/28/09     $1,300.00
  Insurance - Met Life                              12/16/08       393.60
  Volunteer - Choice Point                          3/31/09         42.75
  Equipment Rental –Dell Financial Services         2/21/09          9.18
  Rent – Archon Group, INC                          2/18/09        100.00
  Salaries – Paychex                                3/19/09      1,496.81
  Salaries – Paychex                                5/28/09        751.49
                                                         Total $4,093.83
  Source: CASA General Ledger and OIG analysis.

       In addition, $1,500 was charged by CASA and approved by JGA for an
audit of the 2007 financial statements. Considering the JAG was awarded in
2008 and therefore not included on the financial statements of CASA in
2007, the expense is not allowable on the 2008 JAG award. We recommend
OJP remedy the $4,094 of unsupported costs and the $1,500 in unallowable
costs.

      East of the River Clergy Police Community Partnership

      In 2008, $115,924 was awarded to ERCPCP in support of the
Woodland Terrace Youth Intervention Program. This program was designed
to identify young people in troubling situations and promote community
strengthening activities, as well as create collaborations and partnerships
with other service and community organizations.

      As mentioned previously, ERCPCP was a subrecipient of both the 2007
and 2008 JAG awards and was being reimbursed with 2008 grant funds for a
program that was not approved under the grant. As such, we had a difficult
time obtaining a list of only expenses for the 2008 approved ERCPCP
program under the award. Although we chose a judgmental sample of
expenditures, we could not ensure that ERCPCP or JGA had provided a
complete listing of expenses, and therefore, our testing may be based off of
an incomplete list of expenditures charged to the grant.

       ERCPCP’s direct expenses through September 2009 totaled $35,104
for salaries and benefits, program supplies, travel, and food. JGA approved
each of the selected transactions and subsequently reimbursed ERCPCP for
expenditures that were not supported and may not have been allowable. As
noted in Exhibit 6, we found $716 in expenses that were either not properly

                                        13 

supported or an explanation was not available for why certain payroll taxes
were charged. We recommend OJP remedy $716 in unsupported costs.

         EXHIBIT 6: UNSUPPORTED ERCPCP EXPENDITURES

                                              Transaction
          Unsupported Expenses                                 Amount
                                                 Date
       Payroll Taxes                            1/19/09          $102.98
       Payroll Taxes                            4/17/09           269.23
       Payroll Taxes                            7/24/09           269.23
       Program Supplies - Supplies for
                                                1/09/09            75.00
       Young Men's Training Session
                                                       Total    $716.44
     Source: ERCPCP General Ledger and OIG analysis.

     Metropolitan Police Department

      In 2008, $160,000 was awarded to MPD in support of the Gang
Violence Reduction Intelligence Program. The program was designed to
enhance community outreach, deter gang activities, and ultimately result in
the reduction of violent crime.

       MPD’s direct expenses through September 2009 totaled $159,527 and
were comprised of expenses to fund the advertising campaign for their tip
line, training conferences and travel, and equipment for the program. JGA
approved each of the selected transactions and subsequently reimbursed
MPD for an expenditure that was not supported. Based on a judgmental
sample of expenses, we found that neither JGA nor MPD could provide
adequate support for $585 in hotel and food costs for a gang investigator
conference. We recommend OJP remedy $585 in unsupported costs.

     Prisoner Outreach Ministry

      In 2008, $108,000 was awarded to Prisoner Outreach Ministry in order
to support the Welcome Home Re-Entry Program. The Welcome Home Re-
Entry Program works to reduce recidivism, educate the community, and
develop strong systems of support, by building relationships and matching
returning individuals with compassionate volunteer mentors from
communities of faith and civic organizations.




                                       14 

      POM’s direct expenses through September 2009 totaled $43,955 and
were comprised of expenses to fund salaries and benefits, program supplies,
and travel. JGA approved each of the selected transactions and
subsequently reimbursed POM for expenditures that were not supported.
Based on a judgmental sample of expenses we found, as noted in Exhibit 7,
$1,141 in expenses that were not adequately supported. We recommend
OJP remedy $1,141 in unsupported costs.

                      EXHIBIT 7: UNSUPPORTED POM 

                             EXPENDITURES 


                 Unsupported          Transaction
                                                           Amount
                  Expenses                Date
              Joyce Void Fringe         12/26/08            $251.12
              Joyce Void Fringe          3/20/09              251.12
              Joyce Void Fringe          6/12/09              488.26
              Joyce Void Travel         12/15/08              150.50
                                                Total     $1,141.00
           Source: POM General Ledger and OIG analysis.

      As a result of our review of the subrecipient expenditures, we are
concerned with JGA’s internal procedures for matching reimbursement
requests to adequate supporting documentation. Therefore, we recommend
OJP require JGA implement a procedure to ensure that only supportable
expenditures are charged to the grant.

Supplanting

       According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. To determine whether
JGA used grant funds to supplant existing District of Columbia funds for
program activities, we reviewed its fiscal year 2009 and 2010 budgets for
the 2008 and 2009 Recovery Act JAG awards. Based on our review of the
budgets, we found no indication that JGA used federal funds to supplant
District of Columbia funds.

Management of Subrecipients

      In order to appropriately manage subrecipients, JGA is responsible for:
(1) soliciting subrecipients for federal awards, (2) reviewing applications and
making awards, (3) providing training and technical assistance to award
winners, (4) approving subrecipient reimbursement requests, (5) monitoring
the subrecipients, and (6) overseeing subrecipient reporting.
                                        15 

Solicitation Process

      JGA solicited applicants for grant funding under the 2008 and 2009
JAGs. Solicitations were posted through the Office of Partnership and Grants
Services, on JGA’s website, and in the DC Register. Exhibit 8 provides
details on solicitation dates and awards.

               EXHIBIT 8: JGA SOLICITATIONS AND AWARDS13

                             Grant No. 2008-DJ-BX-0004
   Date     of the Award to JGA                                        August 19, 2008
   Date     of State-level solicitation to subrecipients               April 7, 2008
   Date     that applications are required to be returned              May 16, 2008
   Date     that awards were planned to be made                        October 1, 2008
                  Grant No. 2009-SU-B9-0006 (Recovery Act)
   Date     of the Award to JGA                                        April 29, 2009
   Date     of State-level solicitation to subrecipients               April 6, 2009
   Date     that applications are required to be returned              May 15, 2009
   Date     that awards were planned to be made                        October 1, 2009
 Source: JGA grant solicitations

      We reviewed the solicitation issued by both JGA and OJP regarding the
2008 JAG award, and found that the solicitation issued by JGA accurately
describes the grant program and requirements of the grant in comparison to
the OJP solicitation.

Awards Process

    According to JGA officials and JGA’s draft Policies and Procedures
Manual, the awarding process for subrecipients is as follows:14

   	 Applications that meet the Request for Application (RFA) and
      application criteria are reviewed and scored by an independent review
      panel. The review panel uses a scoring form that assesses the
      application against specific programmatic components and key criteria
      highlighted in each RFA.

       13
          We noted the date of the state-level solicitation to subrecipients was prior to the
date of award to JGA. We take no exception to this as JGA did not plan to give out the
awards to subrecipients until after receiving the JAG award from BJA.
       14
            At the time of our review, JGA did not have a finalized policy in place outlining the
solicitation and award process.
                                               16 

   	 The JGA Grant Managers or JGA's review panel determine the highest
      rated applications for each RFA.

   	 The Grant Managers and JGA Director conduct reviews and provide
      scores for each application.

   	 After all scores are received, the JGA Director or panel consultant
      schedules meetings with each review panel to discuss the applications’
      strengths and weaknesses and the ratings. If possible, a consensus on
      preliminary funding decisions is identified.

   	 The final funding decisions rest solely with the JGA Director, as the
      scoring and the recommendations of the review panel are only
      advisory.

      As part of our review, we attempted to take a judgmental sample of
selected and rejected subrecipient applications to determine whether grant
funding was awarded on a competitive basis. We requested a list of the
subrecipient applicant names for the 2008 JAG Program and the 2009
Recovery Act JAG Program. JGA could only provide limited documentation
for subrecipients who applied for funding under the 2008 JAG Program.
Although JGA provided the applications for the four selected subrecipients, it
was only able to provide three of the four evaluation scores for those
subrecipients.15 JGA stated that they were unable to find the remainder of
the applicant information.16 As such, we were unable to select a judgmental
sample from the 2008 JAG Program. JGA was able to provide a full list of
applicants for the 2009 Recovery Act JAG Program, as well as the
documentation for the selected judgmental sample.

      Based on our sample, we found that JGA did not always award funds
to those subrecipients with the highest ranking peer review scores. JGA
indicated that these decisions were made at the Director’s discretion, but
could not provide documentation justifying or supporting the decisions.17

       15
            JGA stated that it could not determine if the subrecipient in question participated
in the competitive process for the grant, and that there was insufficient documentation in
the file to determine how the decision was made to fund the program.
       16	
             JGA was only able to provide evaluation scores for one rejected applicant.
       17
          The majority of the Recovery Act award decisions were made by the former JGA
Director. Only one subrecipient award decision was made by the current JGA Director. This
one award subrecipient had a lower peer review score, but JGA was able to provide a
reasonable explanation justifying the award.
                                               17 

Furthermore, there was at least one instance in which JGA awarded funding
without providing an evaluation score. As such, we are unable to determine
whether the method used was fair and reasonable.

       At the time of our review, JGA did not have a finalized policy in place
outlining the solicitation and award processes. JGA officials stated although
an older policy for grants administration existed, concerns over its adequacy
prompted its on-going revision. As a result, JGA has been working to
provide a more comprehensive grants management policy to include revised
measures for the solicitation and award processes. However, in our
judgment, without formalized policy, JGA’s solicitation and awarding process
may be inconsistent from year to year and may not allow for competitive
award decisions.

       Further, the draft version of JGA’s Policies and Procedures Manual
authorizes JGA’s Director final decision authority. However, this may not
always provide transparency into the award-making process. We are
concerned that by not documenting the reasons for final award decisions,
JGA risks impairing the transparency of its award-making process.
Therefore, we recommend that OJP require JGA to develop and implement
policies and procedures outlining the grants solicitation and award process.
This policy should require the JGA Director to justify decisions outside of the
peer review results. For example, the justifications should require JGA’s
Director to: (1) list all applications received to include the lowest scoring
application to be funded and every application scoring higher regardless of
whether it was funded, and (2) explain why an application either received or
did not receive funding.

Training and Technical Assistance

       During the audit, subrecipients were provided training through a
webinar. The training provided subrecipients with updated reporting
requirements and informed them of new templates and forms that will be
required for all subrecipients. Included in the new forms are updated
programmatic reports that tie accomplishments to the goals and objectives
of the grant, a time card report specifically for Recovery Act supported
positions, and a Financial Grants Workbook. JGA officials also indicated that
they are starting a Subrecipient Forum in FY 2010 to allow subrecipients to
share the status of current project activities and best practices, identify
common challenges and concerns, and receive technical assistance from
peers.




                                      18 

Management of Funds

      JGA officials explained that payments are made to subrecipients based
on requests, which are submitted on a quarterly basis.18 Upon receipt, JGA
reconciles the requests to supporting documentation and must approve the
reimbursement request prior to submission to the OCFO, who is responsible
for processing the payment.

       As previously discussed, we selected a judgmental sample of 81
expenditures totaling $189,821 from the four approved subrecipients to
determine whether the charges that were posted to the grant were allowable
and in accordance with grant requirements. As a result of our review, we
identified $6,536 in unsupported costs and $1,500 in unallowable costs, and
recommended that OJP require JGA implement a procedure to ensure that
only supportable expenditures are charged to the grant

Monitoring

       Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. To this end, OJP requires that sub awards be monitored
throughout the life of the grant to ensure that: (1) the subrecipient
complies with the programmatic, administrative, and fiscal requirements of
the relevant statutes, regulations, policies, and guidelines; (2) programs
initiated by the subrecipient are carried out in a manner consistent with the
relevant statutes, regulations, policies, and guidelines of the program;
(3) the subrecipient is provided guidance on policies and procedures, grant
program requirements, general federal regulations, and basic programmatic,
administrative, and financial reporting requirements; and (4) any problems
that may impede the effective implementation of grant programs are
identified and resolved.

      The 2008 JAG award contained four approved subrecipients. We
reviewed pertinent documents and discussed the monitoring and oversight
procedures with both JGA and each of the subrecipients.

      Site Visit

       JGA annually conducts a site visit of each subrecipient. Each site visit
lasts one day and while on-site, JGA uses a Site Visit Assessment
Worksheet, which is a standard template that walks the reviewer through

      18
          Subrecipients can obtain special permission to submit reimbursement requests
containing their expenditures on a monthly basis.
                                           19 

the necessary steps, including a review of the grant file, any subrecipient
documents, and a program review. The reviewer looks at both financial and
programmatic policies and procedures in place at the subrecipient level to
ensure that grant funds are used accordingly. The worksheet allows for the
reviewer to document compliance with the review step; identify strengths
within that step; and pose any appropriate questions, concerns, and
recommendations.

   The annual JGA site visit assessment is broken down into three primary
review areas:

   	 The Grant File Review section includes a review of the award letter,
      agreement, and certifications; the project application and budget;
      request for funds and project expenditure reports; quarterly match
      reports; quarterly programmatic reports; problem notifications; and
      Grant Adjustment Notices;

   	 The Sub-Grant Documentation section consists of a review of the
      subrecipient award file; policies and procedures for personnel,
      accounting, and procurements; financial reports; and the most recent
      audit reports or financial review; and

   	 The Programmatic Review section focuses on goals and performance
      measures; program structure; program activities; sustainability;
      lessons learned; and administrative or programmatic technical
      assistance, training, and support needed.

      In 2009, JGA completed a site visit for each of the 2008 JAG
subrecipients. However, JGA did not complete the programmatic review
section of the Site Visit Assessment Worksheet. We discussed with JGA their
procedures for overseeing subrecipient program accomplishments, and
methods for compiling the annual progress report. Although JGA requires
quarterly programmatic reports from each subrecipient, and indicated the
quarterly reports are used to compile the annual report, we determined that
the progress reports submitted annually by JGA lack pertinent information
on the programs’ accomplishments and instead, often documented the goals
and objectives stated by the subrecipients.19 We reviewed the subrecipient
quarterly reports and while they seemed to be in line with JAG objectives,
JGA officials revealed that they do not verify the accuracy of the quarterly
reports.

      19
         Due to the limited amount of information reported in the 2008 JAG Progress
Report, we reviewed JGA’s annual 2006 and 2007 reports.

                                           20 

       Therefore, while we reviewed and summarized subrecipient quarterly
reports for the 2006, 2007, and 2008 JAG awards, we could not attest to the
accuracy of the information and could not determine whether the goals and
objectives of any of the three JAG awards were met.20 As a result, we
recommend that OJP require JGA to develop procedures for assessing and
verifying subrecipients’ progress toward their goals and objectives. We
believe that the procedures should require supporting documentation from
subrecipients to validate the accuracy of the quarterly programmatic reports.
These procedures will, in turn, allow JGA to submit complete progress
reports to OJP and conduct oversight of the goals and objectives.

       Additionally, JGA issues a post-site visit letter to subrecipients. This
letter features general recommendations, and if necessary, will include grant
specific recommendations. We noted that each post-site visit letter
contained the same five general recommendations for the four subrecipients
and JGA made specific recommendations that two of the subrecipients
explore avenues for standardizing training for mentors and volunteers
serving the program.21 While JGA issued recommendations, they do not
conduct follow-up to ensure necessary actions are taken and
recommendations are resolved. Further, JGA does not use the findings to
assess risk associated with subrecipients when considering them for future
awards. Because JGA does not follow-up on its recommendations to
subrecipients, and does not use site visit findings to assess the risks for
future grant awards, the reviews appear to serve a limited purpose. As
such, we recommend that OJP require that JGA create and implement site
visit follow-up procedures on prior JGA recommendations.




       20
          Appendix II contains 2006, 2007, and 2008 JAG program accomplishments as
they relate to JGA’s priority areas.
       21
           These recommendations consisted of: (1) utilizing the correct award numbers in
communications to the grantee; (2) referencing only the current award year and budget
when requesting funds; (3) providing more specific details of grant accomplishments in the
programmatic reports; (4) submitting both electronic and hard copy versions of request for
funds and programmatic reports; and (5) submitting all third quarter requests for funds by
July 15th.
                                            21 

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. We reviewed the
Financial Status Reports (FSRs), the Annual Categorical Assistance Progress
Reports (Progress Reports), and the Recovery Act Reports submitted by JGA
to determine whether each report was timely and accurate.

Subrecipient Reporting

       According to JGA, subrecipients are required to report on a quarterly
basis financial expenditures, program performance and accomplishments,
and Recovery Act report information, including hours worked. In addition to
the required Quarterly Recovery Act Report, subrecipients are also required
to submit a monthly Time Card Report to JGA for Recovery Act supported
positions. JGA and the OCFO use the information reported by subrecipients
to compile FSRs, Progress Reports, and Quarterly Recovery Act Reports.

Financial Status Reports

       According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with final FSRs due within 90 days
after the end of the award. From October 2008 through September 2009,
JGA submitted a total of four FSRs for the 2008 JAG award. We tested the
timeliness of these submissions and found that three of the four reports
were submitted on time, with only one submitted 10 days late.

      The Financial Guide also states that FSRs should be accurate and
disclose only expenditures and un-liquidated obligations at the lowest
funding level related to the grant.22 To verify FSR accuracy, we compared
financial activity reported on the FSRs to expenditures recorded in the
organization’s accounting system.23 At the time of our review, the FSRs



       22
          Unliquidated obligations on a cash basis are obligations incurred, but not yet paid.
On an accrual basis, they are obligations incurred, but for which an outlay has not yet been
recorded.
       23
           In determining the amount according to the accounting system, we included the
reversal transactions that the OCFO processed for the unapproved subrecipient
expenditures.

                                             22 

reflected the information found in the SOAR.24 However, as mentioned
previously, the 2008 JAG award contained expenditures for unapproved
subrecipients. As a result, the submitted FSRs, while reflecting what was in
the SOAR at the time, did not accurately report the 2008 JAG expenses. The
SOAR information presented in Exhibit 9 below has been adjusted to reflect
only those charges accurately posted to the 2008 JAG award. We found a
difference of more than $466,000 between what was reported on the FSRs
and actual expenditures for the approved subrecipients.

    EXHIBIT 9: COMPARISON OF REPORTED AND ACTUAL GRANT 

                         EXPENSES 


                                    Reported Outlays
     Quarter Ending                                Adjusted            Variance
                               Per FSR
                                                  SOAR Report
        12/31/2008                  $0.00                $0.00              $0.00
         3/31/2009             119,680.29            54,878.16          64,802.13
         6/30/2009               1,380.63            77,384.45         -76,003.82
         9/30/2009             751,023.08           273,455.22         477,567.86
               TOTAL         $872,084.00          $405,717.83        $466,366.17
   Source: JGA Financial Status Report and Accounting System

      Because OJP relies on the FSRs to obtain an accurate picture of grant
expenditures, it is essential that JGA ensure these reports accurately reflect
grant activity. As such, we recommend that OJP require JGA to reconcile the
2008 JAG reimbursements and retroactively correct and resubmit all FSRs
for the 2008 JAG award.25

Annual Progress Reports

       OJP requires all JAG recipients to submit annual progress reports. For
FY 2008 and prior, the permanent annual reporting period for all state and
local JAG awards is January 1 through December 31, with reports due
March 31. For FY 2009 and forward, including Recovery Act JAG grants,
state recipients must submit annual progress reports and quarterly
Performance Metric Tool (PMT) reports. The annual progress reporting
period is the award start date through September 30, with reports due

      24
         Based on our testing, the quarterly amounts specified in the FSR did not match
the SOAR amount; however, the overall cumulative grant expenses reported in the SOAR
matched that reported on the fourth FSR.
      25
         As a result of the 2007 JAG expenditures inaccurately being posted to the 2008
JAG award, the accuracy of the 2007 JAG FSRs are also questionable.
                                           23 

November 29. The quarterly PMT reports are due on the 30th of the month
following the close of a quarter. State recipients may use the four PMT
reports to satisfy the annual reporting requirement by uploading the reports
into the OJP Grant Management System.

      For the 2008 JAG award, we selected for review the first two progress
reports submitted. We found that the first report was timely, but as of
March 31, 2010, JGA had not submitted the second progress report. We
also reviewed the annual progress report submitted for the 2009 Recovery
Act JAG award, and found that JGA did not submit the report in a timely
manner. The first report that JGA submitted on December 14, 2009,
encompassed the period of October 1, 2008 through September 30, 2009.
While the grant had no financial or programmatic activity during this period,
the report had the wrong grant number. Upon request, JGA later provided
us with the correct progress reports for the periods March 1, 2009 through
September 30, 2009, and October 1, 2009 through December 31, 2009.
However, as of March 31, 2010, JGA had not uploaded the correct progress
reports into OJP’s Grants Management System (GMS). Therefore, JGA has
not provided OJP with the correct progress reports for the 2009 Recovery
Act JAG award. We recommend that OJP require JGA to upload the correct
progress reports into GMS for the 2009 Recovery Act JAG.

      As discussed in the Site Visit section of this report, JGA did not verify
the accuracy of program information submitted by subrecipients in their
quarterly reports. Without verifying the accuracy of subrecipient program
information, JGA’s ability to accurately determine whether JAG objectives
are being met is questionable.

Quarterly Recovery Act Reports

       In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to BJA and OMB guidance, Recovery Act Reports are due 10 days
after the close of each quarter.26

     In order to facilitate JGA’s submission of the required Quarterly
Recovery Act reports, JGA requires subrecipients to submit a monthly Time
Card Report. JGA uses the hours reported by subrecipients to calculate the
number of Full Time Equivalents (FTE). According to OMB Memorandum


      26
         According to FederalReporting.gov Guidance, the recipient reporting due date of
January 10, 2010, was extended to January 22, 2010.

                                           24 

10-08, dated December 18, 2009, the formula for calculating FTEs is laid out
in Exhibit 10.

           EXHIBIT 10: FORMULA FOR CALCULATING FTE’s

      Total Number of Hours Worked           Quarterly Hours
      and Funded by Recovery Act        ÷    in a Full-Time  = FTEs
      within Reporting Quarter               Schedule
      Source: OMB Memorandum 10-08

      JGA submitted both the third and fourth quarter 2009 Recovery Act
Reports on time and reported no expenditures or program achievements for
either period. However, in the fourth quarter report, JGA reported that
18.85 jobs were created as a result of the Recovery Act. JGA explained that
according to the OMB Memorandum 10-08, subrecipients are allowed to
count a job as created as long as salaries are paid for or will be reimbursed
with Recovery Act funding. Therefore, while JGA recorded no expenditures
during the reporting period, subrecipients paid for salaries during the period
and either the subrecipients had not submitted a Request for
Reimbursement or the Request for Reimbursement was not fully processed
before the end of the reporting period. Therefore, we take no exception to
JGA reporting jobs created during the period.

      Both JGA and the City Administrator are responsible for approving the
data submitted by subrecipients that is used to calculate jobs created. This
information must be signed off by both agencies before it can be submitted
through Federal reporting. We interviewed JGA personnel to determine their
process for verifying the accuracy of the jobs created. While JGA has no
written procedures for verifying this information, a JGA official advised that
they compare the hours reported to the monthly Time Card Report
submitted by subrecipients and to the reimbursement requests to identify
any discrepancies. The City Administrator, however, has no procedures in
place to verify or test the accuracy of the information. Although JGA
indicated that they had procedures in place to verify the data, the Recovery
Act report submitted by JGA included a duplicate entry of hours worked, and
therefore did not accurately reflect jobs created for the quarter. Exhibit 11
below details the results of our testing.




                                      25 

                 EXHIBIT 11: ACCURACY OF FTE DATA FOR
             OCTOBER 1, 2009 THROUGH DECEMBER 31, 2009

                                 Total FTEs        Total FTEs
        Grant Awardees                                         Difference27
                                 Reported          Supported
        Prime Recipient                   .52              .52            0
        Subrecipients                   18.33            18.11          .22
              Total FTE                18.85            18.63          .22
       Source: Recovery Act Reports and JGA Time Card Reports

     As a result, we recommend that OJP require JGA to implement written
procedures for testing the accuracy of its Recovery Act reports.

Program Performance Measures and Accomplishments

       Consistent with the goals of the JAG Program, the purpose of the
District of Columbia awards was to allow JGA to focus efforts on crime
prevention and education, drug treatment, law enforcement initiatives, and
technology improvements. For example, the goals and objectives of the
FY 2008 award are consistent with Washington, D.C.’s public safety and
justice mission. The District of Columbia identified the need to strategically
focus on three main priority areas: (1) Juvenile Crime Prevention;
(2) Prisoner Re-entry; and (3) Gun and Gang Violence Reduction efforts, all
of which fall within the allowable JAG Program areas.

      JGA indicated that the funds received through the 2008 JAG award will
be used for community watch programs, family interventions, and graffiti
removal. Further, JGA recognized the barriers criminal offenders face when
they re-enter the community and the need to eliminate such obstacles,
including the ability to find stable housing, employment, substance abuse
treatment, education and training, and access social services in establishing
drug- and crime-free lives. Additionally, JGA agreed to continue efforts to
intervene through programs that provide mediation, as well as programs
that divert youth who are involved in, or are at risk of involvement in,
gangs.




       27
          The difference results from a duplicate entry of hours worked within the Recovery
Act report submitted by JGA.
                                            26 

      As shown in Exhibit 12, and described in Appendix II, we determined
that the 2008 JAG funds were awarded and expended by subrecipients
within each purpose area mentioned.28

      EXHIBIT 12: GRANT NO. 2008-DJ-BX-0004 EXPENDITURES
                       BY PURPOSE AREA

                                        $79,726
                                          9%
                                              $43,955          Juvenile Crime Prevention
                                                5%             (ERCPCP and CASA)


                                                               Reentry (POM)



                                     $159,527                  Gun and Gang Violence
                  $501,668             18%                     Reduction (MPD)
                    58%

                                                               JGA Personnel Costs



                                                $87,208
                                                               Dollars not Expended
                                                 10%



Source: Expenditures by subrecipients according to JGA grant records

        JGA was also awarded nearly $12 million in Recovery Act JAG funds to
strengthen its comprehensive crime control and prevention strategy.
According to JGA, the FY 2009 Recovery Act JAG award will be used to
invigorate its comprehensive crime control and prevention strategy. To
bolster law enforcement programs and retain and create public safety jobs,
JGA will channel funds toward three main areas: (1) technology to enhance
core operations, (2) communications and computer equipment to improve
multi-agency collaboration, and (3) research and evaluation to increase
transparency and accountability on program performance. JGA plans to
disburse funds among the following purpose areas: law enforcement (10
percent), prevention and education (15 percent), technology and research
(25 percent), and corrections and community corrections (50 percent).
Special emphasis within these three areas will be on at-risk youth or status
offender diversion, data and technology capacity improvements, diversion
initiatives, evidence based services for adjudicated youth, prisoner re-entry,
and research and evaluation.

      28
          Through our analysis of subrecipient goals and objectives, we determined and
categorized subrecipient expenditures by program area.
                                           27 

     As of December 2009, JGA had not expended any Recovery Act funds
so we cannot compare their plan for the Recovery Act funds with actual
expenditures.

Conclusion

       JGA had not met important OJP grant reporting, expenditure tracking,
and monitoring requirements over 2008 JAG funds. Over $600,000 in
unallowable expenditures were charged by JGA to the 2008 JAG award.
While these unallowable charges were subsequently reversed, we also
identified multiple subrecipients that were receiving funding from both the
2006 and 2007 grants but, according to grant documentation, had not been
approved as subrecipients under the awards. For the 2006 and 2007 grants,
respectively, we noted $45,295 and $6,700 in charges for subrecipients not
identified as approved subrecipients in the award documentation.

      Further, JGA allocated over $317,000 in unsupported Administrative
costs to the 2006, 2007, and 2008 JAG awards and reimbursed subrecipients
over $8,000 from the 2008 JAG award for costs that were either
unsupported or unallowable. JGA generally submitted FSRs to OJP on time,
but did not accurately report 2008 JAG expenses. While the FSRs reflected
the information found in the SOAR, the 2008 JAG award contained
expenditures for unapproved subrecipients. As a result, the submitted FSRs
did not accurately report the 2008 JAG expenses. The SOAR information has
been adjusted to reflect only those charges accurately posted to the 2008
JAG award. However, these adjustments were not reflected on the FSRs.
Therefore, we found a difference of more than $466,000 between what was
reported on FSRs and actual expenditures for the approved subrecipients.

       JGA also submitted incomplete progress reports to OJP, and did not
adequately monitor the achievement of JAG goals and objectives. JGA did
submit required Quarterly Recovery Act reports in a timely manner, and
reported no expenditures for the 2009 Recovery Act JAG award. However,
in the fourth quarter report, JGA reported that 18.85 jobs were created as a
result of the Recovery Act. Both JGA and the City Administrator are
responsible for approving the data submitted by subrecipients that is used to
calculate jobs created. While JGA has no written procedures for verifying
this information, a JGA official advised that they compare the hours reported
to the monthly Time Card Report submitted by subrecipients and to the
reimbursement requests to identify any discrepancies. The City
Administrator, however, has no procedures in place to verify or test the
accuracy of the information. Although JGA indicated that they had
procedures in place to verify the data, the Recovery Act report submitted by

                                     28 

JGA included a duplicate entry of hours worked, and therefore did not
accurately reflect jobs created for the quarter.

      In addition, JGA could not always provide documentation justifying or
supporting award decisions to subrecipients. Therefore, we were unable to
determine whether JGA’s method for awarding sub-grants was fair and
reasonable. At the time of our review, JGA did not have a finalized policy in
place outlining the solicitation and award processes of JAG funds to
subrecipients. JGA has been working to provide a more comprehensive
grants management policy to include revised procedures for the solicitation
and award processes. The draft version of JGA’s Policies and Procedures
Manual authorizes JGA’s Director final decision authority in making awards to
subrecipients. However, this may not always provide transparency into the
award-making process.

       As a result of these findings, we are concerned with JGA’s ability to
manage the nearly $12 million in Recovery Act funds. Our report contains
20 recommendations. We discussed the results of our audit with JGA
officials and have included their comments in the report as applicable.

Recommendations

We recommend that OJP:

  1.	   Work with JGA to ensure compliance with the JAG Special Condition
        that requires JGA to establish a trust account to deposit and maintain
        JAG funds.

  2.	   Require that JGA establish procedures for the allocation of 

        administrative costs. 


  3.	   Remedy $34,572 in unsupported administrative costs.

  4.	   Remedy the $282,903 in unsupported costs from 2006 and 2007 JGA
        administrative expenses.

  5.	   Require that JGA implement policies and procedures for maintaining
        an inventory of accountable property and equipment that meets the
        Financial Guide requirements.

  6.	   Require that JGA implement a formal process for reviewing and 

        reconciling grant expenditures in a timely manner. 



                                      29 

7.	   Remedy unapproved charges of $45,295 to the 2006 JAG Award No.
      2006-DJ-BX-0016.

8.	   Remedy unapproved charges of $6,700 to the 2007 JAG Award No.
      2007-DJ-BX-0055.

9.	   Remedy unsupported costs of $4,094 resulting from payments made
      to the Court Appointed Special Advocates for Children of Washington,
      D.C.

10.	 Remedy unallowable costs of $1,500 resulting from a payment to the
     Court Appointed Special Advocates for Children of Washington, D.C.

11.	 Remedy $716 in unsupported costs resulting from payments made to
     the East of the River Clergy Police Community Partnership.

12.	 Remedy $585 in unsupported costs resulting from payments made to
     the Metropolitan Police Department.

13.	 Remedy $1,141 in unsupported costs resulting from payments made
     to the Prisoner Outreach Ministry.

14.	 Require JGA implement a procedure to ensure that only supportable
     expenditures are charged to the grant.

15.	 Require JGA to develop and implement policies and procedures
     outlining the grants solicitation and award process. This policy
     should require JGA’s Director to justify award decisions outside of the
     peer review results.

16.	 Require JGA to develop procedures for assessing and verifying
     subrecipients’ progress toward their goals and objectives.

17.	 Require that JGA create and implement site visit follow-up
     procedures on prior JGA recommendations.

18.	 Require JGA to reconcile the 2008 JAG reimbursements and
     retroactively correct and resubmit all FSRs for the 2008 JAG award.

19.	 We recommend that OJP require JGA to upload the correct Progress
     Report into GMS for the 2009 Recovery Act JAG award.

20.	 Require JGA to implement written procedures for testing the accuracy
     of its Recovery Act reports.

                                   30 

           SCHEDULE OF DOLLAR-RELATED FINDINGS 


QUESTIONED COSTS:29                                        AMOUNT ($)           PAGE

Unsupported Costs

Various Subrecipients Expenditures                                   6,536        12

2008 JGA Administrative Costs                                      34,572          8

2006 JGA Administrative Costs                                      92,292          8

2007 JGA Administrative Costs                                     190,611          8

Unallowable Costs

2008 Subrecipient Audit Expense incurred in                          1,500        13
2007

2006 Unapproved Subrecipients                                      45,295         11

2007 Unapproved Subrecipients                                        6,700        11

TOTAL QUESTIONED COSTS:                                        $377,506




      29
           QUESTIONED COSTS are expenditures that do not comply with legal, regulatory,
or contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by the
offset, waiver, recovery of funds, or the provision of supporting documentation.
                                           31 

                                                                 APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether costs claimed
under the 2008 JAG award are allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
award. The objective of our audit was to review performance in the
following areas: (1) grant requirements; (2) internal control environment;
(3) cash management; (4) program income; (5) grant expenditures;
(6) property management; (7) supplanting; (8) management of
subrecipients and contractors; (9) Financial Status Reports, Progress
Reports, and Recovery Act Reports; and (10) program performance and
accomplishments.30 During our audit, we determined that program income
and management of contractors were not applicable to JGA’s JAG awards.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. Unless otherwise specified, our audit covered activities that
occurred between the inception of grant number 2006-DJ-BX-0016, 2007­
DJ-BX-0055, 2008-DJ-BX-0004, 2008-DJ-BX-0737, 2009-DJ-BX-0170, and
2009-SU-B9-0006 through September 30, 2009. In conducting our audit,
we focused our testing primarily on the 2008 JAG award, which totaled over
$872,000. In addition, we assessed controls over aspects of grant
management to determine whether JGA was adequately prepared to handle
nearly $12 million in 2009 Recovery Act funds.

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the primary
criteria we consulted during the audit was contained in the OJP Financial
Guide. We interviewed JGA officials, personnel from the OCFO, the OJP
Grant Manager in the Washington, D.C. metropolitan area, and the 2008 JAG
award recipients.


       30
           Under the 2008 grant, JGA identified the need to strategically focus on juvenile
crime prevention, prisoner re-entry, and gun and gang violence reduction. To carry out
these efforts, JGA competitively awarded funding to four subrecipients: (1) Court Appointed
Special Advocates of Washington, D.C., (2) East of the River Clergy Police Community
Partnership, (3) Metropolitan Police Department, and (4) Prisoner Outreach Ministry.
                                            32 

      In conducting our audit, we tested 100 percent of the 2006 - 2008
administrative costs and selected a judgmental sample of 81 subrecipient
expenditures totaling $189,821 from the four approved subrecipients under
the 2008 JAG award. Our judgmental sampling was designed to obtain
broad exposure to numerous facets of the grants reviewed, such as dollar
amounts or expenditure category. In addition, we assessed the grantee’s
monitoring of subrecipients, reviewed the timeliness and accuracy of
required FSRs, Progress, and Recovery Act reports, and evaluated
performance to grant objectives.

      We did not test internal controls and compliance with federal programs
for the grantee and subrecipients as a whole. JGA met the requirements for
a Single Audit under OMB Circular A-133. The District of Columbia’s
September 30, 2008 financial statement audit disclosed the following
weaknesses that may be pertinent to JGA’s administration of the JAG
awards: (1) investment and cash counts were not reconciled timely;
(2) lack of segregation of duties within People Soft (payroll system);
(3) noncompliance with procurement regulations; (4) inadequate monitoring
of subrecipients; (5) inadequately supported time charges; (6) inaccurate
Financial Status Reports; and (7) journal entries not supported by adequate
documentation to help determine whether the underlying transactions were
allowable under the grant.

       In conducting the audit, we relied on computer-generated data found
in OJP’s Grant Management System as well as JGA’s accounting records for
the purpose of determining the amount and nature of grant expenditures.
We performed testing of source documents to assess the accuracy of
reimbursement requests and financial status reports; however, we did not
test the reliability of JGA financial management system as a whole.




                                    33 

                                                                                                                 APPENDIX II

            FY 2006 – 2008 JAG PROGRAM ACCOMPLISHMENTS AS REPORTED BY
                                   SUBRECIPIENTS
  Program Priority Areas                                         2006 JAG Program Accomplishments*
                                   •   The Washington, D.C. National Guard About Face Program - 100% of enrolled participants will
                                       participate in a community services/educational awareness orientation.
Prevention and Education
                                   •   The Visitors Center responded to 3,219 inmate requests for help as well as requests that come
Programs
                                       to the Visitors Center via attorneys, families, the Department of Corrections and the Court.
                                   •   Women Empowered Against Violence held a Teen Dating Violence Workshops for 1,389 teens.
                                   •   The Time Dollar Institute had 47 families referred for substance abuse issues.
                                   •   The Multicultural Career Intern Program had 125 program participants who received Alcohol,
Drug Treatment                         Tobacco, and other Drugs (ATOD) prevention education.
                                   •   The Juvenile Drug Court graduates maintained sobriety, successfully completed education and
                                       job training programs, and did not re-offend.
                                   •   The Multicultural Career Intern Program Inc. conducted individual and group counseling
                                       sessions for 125 youth to reduce gang involvement.
                                   •   The Boys and Girls Clubs of Greater Washington has served 456 low-income, at-risk youth
                                       between 13-18 by providing them with positive alternatives to gangs and the streets during
Gang Violence Reduction
                                       critical non-school hours.
                                   •   The Multicultural Career Intern Program provides intensive counseling, outreach, and other
                                       support services to the parents and family members of program participants; 125 youth have
                                       been served.
                                   •   The Criminal Justice Coordinating Council (CJCC) will create a District of Columbia Justice
Increase Technology                    Information System (JUSTIS) Continuity of Operations Plan.
Capabilities                       •   CJCC will Install Global Justice XML Data Model Data Exchange Prototype.
                                   •   CJCC will retire District of Columbia Superior Court’s Terminal Services.
                                   •   The Alliance of Concerned Men enrolled 60 court-involved youths who reside in Ward 7 & 8
                                       and within one year will enroll and provide services to 100% (60+) of court-involved youth
Specialized Programs for
                                       upon reentry into Wards 7 & 8; provides or has provided superior services to (60) of court-
Families with Children
                                       involved youth and (12) non court involved youth upon re-entry into their perspective
Involved in an
                                       communities.
Unauthorized Use of
                                   •   570 youth served by the Time Dollar Institute through their participation in the Youth Court
Vehicles (UUVs) and
                                       Program that stresses accountability and empowerment.
Criminal Offenses
                                   •   The Center for Student Support Services will promote resiliency, increase school binding and
                                       decrease violence and substance use among a selected group of 40 high-risk students.
Source: JAG Program Documentation and Quarterly Reports
* Information reported by subrecipients has not been verified by JGA

                                                                       34
   Program Priority
                                                               2007 JAG Program Accomplishments*
        Areas
                              •   The Washington, D.C. National Guard has 86% of its participants enrolled in a community
                                  service/educational awareness orientation.
Prevention and
                              •   The Metropolitan Police Department provided safe passages for 15,750 youth during their
Education Programs
                                  transition to and from school.
                              •   Women Empowered Against Violence held a Teen Dating Violence Workshop for 1,325 teens.
Drug Treatment                •   Yayah’s provided substance abuse prevention services to 59 families.
                              •   The Criminal Justice Coordinating Council has been facilitating the generation of the monthly Adult
                                  GunStat Report.
                              •   The East of the River Clergy Police Community Partnership has worked on decreasing the number
Gang Violence
                                  of youth involved in gun violence, juvenile violence, and/or criminal behavior through positive
Reduction
                                  prevention and intervention efforts for youth and their families.
                              •   The Metropolitan Police Department provides safe havens for 803 youth during unsupervised
                                  hours.
                              •   The Vera Institute of Justice developed a system for assessing performance of grants administered
                                  by JGA and will enable grantees, JGA and the larger community to learn from the investments
                                  made so they can better address justice problems in the future.
Increase Technology
                              •   Julie Peterson assists JGA develop advisory capacity for reviewing proposals in response to JGA’s
Capabilities
                                  April 2009 Requests for Application.
                              •   The Criminal Justice Coordinating Council evaluated grant programs for FY 08 and FY 09 to
                                  determine grantee effectiveness and technical support needs.
                              •   Ten youth have been involved in the Washington, D.C. Department of Youth Rehabilitation
Specialized Programs
                                  Services Multidimensional Treatment Foster Care program.
for Families with
                              •   The Student Support Services provide family therapy to 62 at-risk youth and their families to
Children Involved in
                                  improve intra-family relations and reduce youth behavior problem.
an Unauthorized Use
                              •   The East of the River Clergy Police Community Partnership works to decrease the number of youth
of Vehicles (UUVs)
                                  involved in delinquent behaviors through positive prevention, counseling, and intervention efforts
and Criminal Offenses
                                  for youth and their families.
Source: JAG Program Documentation and Quarterly Reports
* Information reported by subrecipients has not been verified by JGA




                                                                       35
  Program Priority
                                                              2008 JAG Program Accomplishments*
       Areas
                            •   Twenty-nine CASA advocates provided services to 30 youth identified as current dual jacket and/or at
                                risk youth and are within the child welfare system. Of these 30 youth only one was out of compliance
                                with court ordered services. One hundred percent of the youth were free from recidivism and did not
Juvenile Crime                  commit a crime.
Prevention                  •   ERCPCP provided positive opportunities for youths between the ages of 13 and 25, including late night
                                basketball, Rites of Passage Program, paintball, volunteer opportunities, basketball games, college
                                tours, young men’s sessions, retreats, job expos, movies, Washington Nationals games, and camping
                                trips.
Reentry                     •   POM matched 30 mentees (those persons returning home from incarceration) with mentors.
                            •   MPD held 125 mediations and presentations to protect the safety of citizens through the mutual
Gun and Gang
                                exchange of intelligence information and the development, facilitation, and implementation of
Violence Reduction
                                intelligence-led policing strategies.
Source: JAG Program Documentation and Quarterly Reports
* Information reported by subrecipients has not been verified by JGA




                                                                       36
                                                                     APPENDIX III

             AUDITEE RESPONSE TO THE DRAFT REPORT
                   GOVERNMENT OF THE DISTRICT OF COLUMBIA 

                        EXECUTIVE OFFICE OF THE MAYOR 

                       JUSTICE GRANTS ADMINISTRATION





May 26, 2010

Troy M. Meyer
Regional Audit Manager
Washington Regional Audit Office
1300 17th Street
Suite 3400
Arlington, VA 22209

Dear Mr. Meyer:

Please find attached the Justice Grants Administration (JGA) response to the Office of the
Inspector General’s Draft Audit Report, Office of Justice Programs Awards to Justice Grants
Administration: Edward Byrne Memorial State and Local Law Enforcement Assistance Grant
Program. A copy of the response has been provided to the Office of Justice Programs.

Sub-grantee supporting documentation is labeled with the organization name, item, and
dollar amount.

Actions that have been and will be taken by JGA in response to the audit should allay any
concerns about the agency’s ability to manage Recovery Act funds.

If you have any questions, please contact me at 202-727-6552 or
Lisa.Brooks@dc.gov.


Sincerely,




   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                            37 

Lisa E. Brooks
Director, Justice Grants Administration


cc: 	   Neil Albert, City Administrator
        Dr. Natwar Gandhi, Chief Financial Officer
        Linda Taylor, Office of Justice Programs




   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                             38 

                    GOVERNMENT OF THE DISTRICT OF COLUMBIA 

                         EXECUTIVE OFFICE OF THE MAYOR 

                        JUSTICE GRANTS ADMINISTRATION





Response to Office of the Inspector General’s Draft Audit Report, Office of Justice
Programs Awards to Justice Grants Administration: Edward Byrne Memorial State
             and Local Law Enforcement Assistance Grant Program

Following is a response to findings and recommendations directed to the Office of Justice
Programs (OJP) included in the Office of the Inspector General’s (OIG’s) draft audit report
entitled Office of Justice Programs Awards to Justice Grants Administration: Edward Byrne
Memorial State and Local Law Enforcement Assistance Grant Program. The draft report
contains twenty recommendations. The draft audit report recommendations are restated in
bold and are followed by the Justice Grants Administration’s (JGA’s) response. In addition,
JGA has included a response to one of the findings upon which recommendations are based.


Justice Grants Administration Responses to OIG Finding:

While the Justice Grants Administration agrees with most of the audit recommendations as
outlined in the response which follows, there is one instance in which the agency does not
agree with the entire finding, though it does agree with the pursuant recommendation, and
requests that OIG make revise the language so that findings and evidence upon which they
are based are portrayed accurately.

While JGA agrees with the recommendation that the agency implement written procedures
for testing the accuracy of its Recovery Act reports (recommendation 20), JGA disagrees
with the audit’s finding that the Office of the City Administrator (OCA) “has no procedures in
place to verify the accuracy” of data submitted by subrecipients regarding Recovery Act
grant funds (see page 25 of the draft report). As described in detail in response to
recommendation 20, the OCA does have several layers of procedures in place to ensure
accurate reporting. These procedures are documented and all District agencies receiving
ARRA funds are trained in procedures and notified of any procedural changes as guidance is
given from OMB. The number of jobs created reported by JGA and subrecipients in the
fourth quarter was erroneous; however, this was due not to a lack of procedure, but rather
to human error. The reporting procedure is evolving and improvements have been—and
may still be—made to eliminate errors. It is not accurate, however, to say that no procedure
exists.


Justice Grants Administration Responses to OIG Recommendations that OJP:


   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                             39 

1. Work with JGA to ensure compliance with the JAG Special Condition that
requires JGA to establish a trust account to deposit and maintain JAG funds.

The Justice Grants Administration agrees with this recommendation.

JGA will work with the District of Columbia Office of the Chief Financial Officer (OCFO) Office
of Finance and Treasury (OFT) to establish a trust account for the deposit and maintenance
of JAG funds. JGA will contact the OCFO OFT to comply with this recommendation and will
provide updates to the Bureau of Justice Assistance (BJA) by June 30, 2010.

2. Require that JGA establish procedures for the allocation of administrative costs.

The Justice Grants Administration agrees with this recommendation.

JGA has implemented policies and procedures to appropriately allocate administrative costs,
including allocating the salaries and fringe amounts in PeopleSoft. The Labor Distribution
report from OCFO payroll operations is used to verify personnel costs and is used to
reconcile against the expenditures in the OCFO SOAR system.

3. Remedy $34,572 in unsupported administrative costs.

The Justice Grants Administration agrees with this recommendation. JGA will work with OJP
to remedy the costs by September 30, 2010.

JGA has implemented policies and procedures to appropriately allocate administrative costs,
including allocating the salaries and fringe amounts in PeopleSoft. The Labor Distribution
report from Payroll is used to verify personnel costs and is used to reconcile against the
expenditures in the OCFO SOAR system.

4. Remedy the $282,903 in unsupported costs from 2006 and 2007 JGA
administrative expenses.

The Justice Grants Administration agrees with this recommendation. JGA will work with OJP
to remedy the costs by September 30, 2010.

JGA has implemented policies and procedures to appropriately allocate administrative costs,
including allocating the salaries and fringe amounts in PeopleSoft. The Labor Distribution
report from Payroll is used to verify personnel costs and is used to reconcile against the
expenditures in the OCFO SOAR system.

5. Require that JGA implement policies and procedures for maintaining an
inventory of accountable property and equipment that meets the Financial Guide
requirements.

The Justice Grants Administration agrees with this recommendation.

JGA has implemented an equipment purchase policy and procedure for both JGA and the
sub-grantees – see attachment A.


   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                             40 

6. Require that JGA implement a formal process for reviewing and reconciling
grant expenditures in a timely manner.

The Justice Grants Administration agrees with this recommendation.

While JGA did have a formal review process in place, the agency has made significant
updates to the process, policies and procedures to ensure that expenditures are supported
and allowable per OJP Financial Guide requirements. Sub-grantees were made aware of the
new requirements in a mandatory training conducted by JGA staff on March 23, 2010.
Attached is the revised policy and procedure – see attachment B.

Revised policies and procedures will be included in the JGA Policies and Procedures Manual,
which will be finalized no later than September 30, 2010.

7. Remedy unapproved charges of $45,295 to the 2006 JAG Award No. 2006-DJ-
BX-0016.

The Justice Grants Administration agrees with this recommendation. JGA will work with the
OCFO to reverse these charges by July 31, 2010.

8. Remedy unapproved charges of $6,700 to the 2007 JAG Award No. 2007-DJ-BX-
0055.

The Justice Grants Administration agrees with this recommendation. JGA will work with the
OCFO to reverse these charges by July 31, 2010.

9. Remedy unsupported costs of $4,094 resulting from payments made to the
Court Appointed Special Advocates for Children of Washington, D.C. (CASA)

The Justice Grants Administration disagrees with this recommendation. JGA contacted the
Court Appointed Special Advocates for Children (CASA) and requested the supporting
documentation for the unsupported costs identified in the draft audit.

CASA has provided supporting documentation for all transactions totaling $2,794 – see
supporting documentation attached. JGA will work with OJP to remedy the remaining $1,300
in costs.

10. Remedy unallowable costs of $1,500 resulting from a payment to the Court
Appointed Special Advocates for Children of Washington, D.C.

The Justice Grants Administration agrees with this recommendation. JGA will work with OJP
to remedy the costs.

11. Remedy $716 in unsupported costs resulting from payments made to the East
of the River Clergy Police Community Partnership (ERCPCP).

The Justice Grants Administration disagrees with this recommendation. JGA contacted the
East of the River Clergy Police Community Partnership (ERCPCP) and requested the
supporting documentation for the unsupported costs identified in the draft audit.

  John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                 20004 ּ (202) 727-6552

                                            41 

ERCPCP has provided supporting documentation for all transactions totaling $716 – see
supporting documentation attached.

12. Remedy $585 in unsupported costs resulting from payments made to the
Metropolitan Police Department (MPD).

The Justice Grants Administration disagrees with this recommendation. JGA contacted the
Metropolitan Police Department (MPD) and requested the supporting documentation for the
unsupported costs identified in the draft audit.

MPD has provided supporting documentation for all transactions totaling $585 – see
supporting documentation attached.

13. Remedy $1,141 in unsupported costs resulting from payments made to the
Prisoner Outreach Ministry (POM).

The Justice Grants Administration disagrees with this recommendation. JGA contacted the
Prisoner Outreach Ministry (POM) and requested the supporting documentation for the
unsupported costs identified in the draft audit.

POM has provided supporting documentation for all transactions totaling $1,141 – see
supporting documentation attached.

14. Require JGA implement a procedure to ensure that only supportable
expenditures are charged to the grant.

The Justice Grants Administration agrees with this recommendation.

While JGA had a formal review process in place during the time period examined by this
audit, the agency has made significant updates to the process, policies and procedures to
ensure that expenditures are supported and allowable per OJP Financial Guide requirements
– see attachment B. Sub-grantees were made aware of the new requirements in a
mandatory training conducted by JGA staff on March 23, 2010.

Revised policies will be included in the JGA Policies and Procedures Manual, which will be
finalized no later than September 30, 2010.

15. Require JGA to develop and implement policies and procedures outlining the
grants solicitation and award process. This policy should require JGA’s Director to
justify award decisions outside of the peer review results.

The Justice Grants Administration agrees with this recommendation.

JGA is in the process of updating its policies and procedures manual which outlines the
grants solicitation and award process. In addition, the policies and procedures are aligned
with the District’s overall policies grant making policies and procedures, as identified in the
Grants Source Book maintained by the Office of Partnerships and Grants


   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                             42 

(http://opgs.dc.gov/opgd/site/default.asp).   JGA’s   current   grant   making   procedure   is
outlined in attachment C.

Revised policies and procedures will be included in the JGA Policies and Procedures Manual,
which will be finalized no later than September 30, 2010.

16. Require JGA to develop procedures to accurately assess and verify during their
annual site visits the progress of subrecipient accomplishments toward their goals
and objectives.

The Justice Grants Administration agrees with this recommendation. JGA will develop
procedures to accurately assess and verify sub-recipient accomplishments towards goals
and objectives during the annual site visits.

Revised policies and procedures will be included in the JGA Policies and Procedures Manual,
which will be finalized no later than September 30, 2010.


17. Require that JGA create and implement site visit procedures that require
follow-up on prior JGA recommendations.

The Justice Grants Administration agrees with this recommendation.

JGA has developed site visit procedures regarding follow up with sub-recipients on JGA
recommendations as a result of the annual site visit. The procedures are outlined in
attachment D.

These policies and procedures will be included in the JGA Policies and Procedures Manual,
which will be finalized no later than September 30, 2010.


18. Require JGA to reconcile the 2008 JAG reimbursements and retroactively
correct and resubmit all FSRs for the 2008 JAG award.

The Justice Grants Administration agrees with this recommendation. The agency completed
reconciliations of the 2007 and 2008 JAG grants. OCFO will submit revised FSRs by June
30, 2010.

19. We recommend that OJP require JGA to upload the correct Progress Report
into GMS for the 2009 Recovery Act JAG award.

The Justice Grants Administration disagrees with this recommendation.

JGA attempted to submit the correct report to GMS in February, 2010 but was notified that
the correct report could not be uploaded because the report originally submitted had
already been approved. After further follow up with BJA, it was requested that JGA resubmit
as a special report as there is no way to replace an annual report that has been submitted
and approved. JGA has since submitted the 2009 Recovery Act JAG annual progress report
to GMS as a special report.

  John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                 20004 ּ (202) 727-6552

                                              43 

20. Require JGA to implement written procedures for testing the accuracy of its
Recovery Act reports.

The Justice Grants Administration agrees with this recommendation.

JGA will develop written procedures for testing the accuracy of the Recovery Act reports and
will provide a draft within 60 days.

Revised procedures will be included in the JGA Policies and Procedures Manual, which will be
finalized no later than September 30, 2010.

JGA, however, disagrees with the audit’s finding that the Office of the City Administrator
“has no procedures in place to verify the accuracy” of data submitted by subrecipients
regarding Recovery Act grant funds (see page 25 of the draft report). The District takes a
layered approach to ARRA 1512 reporting which involves subrecipients, agency grant
managers, agency ARRA leads, and the OCA. All have been provided with training on ARRA
reporting guidance, as well as the District’s ARRA 1512 online reporting tool—
Reporting.DC.gov. Specifically, subrecipients report directly in Reporting.DC.gov and
provide documentation and certification to JGA.

Agency grant managers are responsible for verifying information provided by subrecipients
for ARRA 1512 reporting. Each agency’s ARRA lead also verifies this reported information.
The OCA serves as an additional level of review for ARRA 1512 reporting by checking that
each grant report is timely, complete, and that there are no inconsistencies. This review is
done through Reporting.DC.gov, which the OCA continues to improve. During the OIG’s
audit of JGA, the OCA added additional controls to the reporting system so that monthly
timecards cannot be duplicated.




  John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                 20004 ּ (202) 727-6552

                                            44 

               ATTACHMENT A: Equipment and Capital Expenditures Purchase

 I.    Purpose

The purpose of this policy is to provide guidance on how to track equipment and capital
expenditures made by JGA and sub-grantees using grant funds.

II.    Procedure

For equipment purchases, JGA and sub-grantees must complete and submit the Equipment
and Capital Expenditures Purchase Form for the following (see attached) for equipment
purchased with grant funds:

   1.	 Individual equipment costing more than $5,000; and/or
   2.	 Movable equipment, which can be laptops, computers or other similar items under
       the $5,000 threshold.

This form must be submitted to JGA (or completed by JGA) no later than June 30, 2010
(end of the third quarter). The equipment forms will be maintained in the respective grant
file folder and on the JGA shared drive in its designated file folder. JGA will review the form
during close-out of grants to ensure that all equipment and capital expenditures are
appropriately recorded.

During the annual site visit, JGA will verify the existence and use of, in accordance with
grant purposes, accountable property and equipment documented in the Equipment and
Capital Expenditures Purchase Form.




   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                             45 

                  SUB-GRANTEE EQUIPMENT AND OTHER CAPITAL EXPENDITURES PURCHASE LIST

The sub-grantee is responsible for notifying the Justice Grants Administration (JGA) of any capital property and/or equipment
purchases made using grant funding. The sub-grantee should complete this form by the third quarter for all capital property
and/or equipment purchases. Items include, but are not limited to: computers, laptops, and equipment purchased over $5,000
per unit cost. After the third quarter, this list should be updated with new items.

   ORGANIZATION:

    PROJECT TITLE:

FEDERAL GRANT NUMBER:                                                 SUB-GRANT NUMBER:

    GRANT PERIOD:



                                                                                                          New (N)
   Equipment                                                                       Date                                  Location
                       Manufacturer                             Serial #                                   Used
     Type                                     Model #                            Purchased      Cost                     Housed
                                                                                                            (U)




   Grant Certification: I certify to the best of my knowledge and belief that this purchase list is correct and complete and that all
                             equipment is for the purpose set forth in the sub-grant award documents.

                                      Project Director: (please print name, sign and date)
                                      Financial Officer: (please print name, sign and date)



        John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC 20004 ּ (202) 727-6552

                                                              46 

                     ATTACHMENT B: Reimbursement Request Procedures

I.       PURPOSE

The purpose of this policy is to provide guidance on how to process Sub-grantees’
Reimbursement Requests in a timely and accurate manner.

II.      PROCEDURE

Reimbursement Requests

      1.	 Sub-grantees shall submit to JGA the following forms along with proper supporting
          documentation for each reimbursable item:
            a.	 Sub-grant Reimbursement Request Form – is used to request reimbursement
                for expenditures that subgrantees incurred during the reimbursement period.
            b.	 Financial Status Report – is used for a detailed account of categorical (i.e.
                personnel, fringe benefits contract/consultants, etc.) expenditures that were
                incurred during the reimbursement period.
            c.	 Intra-District Standard Request form – completed form is required from all
                District of Columbia Government agencies and is used for payment transfer to
                those agencies.

      2.	 Sub-grantee reimbursement request processes are as follows:
             a.	 Sub-grantees are required to submit reimbursement request packages either
                 on a monthly or quarterly basis to the JGA Grant Manager managing the
                 grant award. The completed package is due no later than the 15th of the
                 month following the end of the monthly or quarterly reimbursement period.
                 The chart below outlines the reporting period and respective deadlines:

             Reporting Period                               Due Date
             October 1 – October 31                         November 15th
             November 1 – November 30                       December 15th
             December 1 – December 31/1st Quarter           January 15th
             January 1 – January 31                         February 15th
             February 1 – February 28                       March 15th
             March 1 – March 31/2nd Quarter                 April 15th
             April 1 – April 30                             May 15th
             May 1 – May 31                                 June 15th
             June 1 – June 30/3rd Quarter                   July 15th
             July 1 – July 31                               August 15th
             August 1 – August 31                           September 15th
             September 1 – September 30/4th Quarter         October 15th


             b.	 Sub-grantees can expect payment within 31 business days of request
                 submission to JGA.
             c.	 The chart below outlines the reimbursement review process by task, timeline,
                 and role and responsibility:



      John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                     20004 ּ (202) 727-6552

                                              47 

Task                                             Timeline           Assigned to
Initial review of reimbursement request and      8 business days    Grants Manager
supporting documentation

Second review of reimbursement request and       5 business days    Grants Management
supporting documentation                                            Specialist

Sub-grantee response to JGA initial/second       5 business days    Sub-grantee
review request for more
information/documentation

Final review and approval of all documentation   2 business days    Grants Manager and
and notice of dispute                                               JGA Director

Review purchase order number for accuracy,       1 business day     Financial Analyst
including funding availability and
address/vendor information, and forward
reimbursement request to OCFO for payment
and processing

Payment and processing of reimbursement          10 business days   OCFO
request

Payment status updates                           Weekly basis       Financial Analyst
                                                 until all
                                                 payments are
                                                 made


Payment Process
     Sub-grantees should expect a reimbursement check within 31 days after a
     completed reimbursement request is submitted to JGA. If a check is not received by
     the 32nd day after submitting the reimbursement request to JGA, the sub-grantee
     should contact the Grant Manager managing their award by telephone or email for
     resolution.

Reconciliation
      The Grants Management Specialist shall perform a monthly reconciliation of all active
      grant awards no later than the 20th day of every month. This reconciliation shall
      consist of reconciling expenditures that were recorded in JGA’s grants tracking
      spreadsheet against expenditures that were recorded in SOAR (OCFO accounting
      software) during the month. Any discrepancies found shall be corrected using the
      OCFO journal entry request process.




  John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                 20004 ּ (202) 727-6552

                                              48 

        ATTACHMENT C: Justice Grants Administration Proposal Evaluation Process

 I.        Purpose
   The purpose of this policy is to provide guidance on the proposal evaluation process. The
   policy of the Justice Grants Administration, as per District and federal government
   guidelines, requires that all sub-grants to private organizations be awarded on a
   competitive basis, with exceptions as noted below. JGA engages in the following process
   in its solicitation, review, and evaluation of funding applications and also follows the
   City-Wide Grants Manual and Sourcebook (Grants Manual).

II.      Procedure
   1.	 Review the federal application and special conditions, laws and statutes.

  2.	 Prepare and submit a Notice of Funding Availability (NOFA) for publication in the
      Office of Partnerships and Grants Services (OPGS) Funding Alert, and DC Register to
      notify the public of intent to make grant funds available via competitive solicitation
      or Request for Application (RFA).

  3.	 Make public announcement in a minimum of one other medium (for a total of three).
      This can be announced in a local newspaper, community newsletter, or direct
      mailing.

  4.	 Prepare an RFA package that includes:
         a.	 Background/general information
         b.	 Availability of funds and award limits
         c.	 Eligibility criteria
         d.	 Eligible program activities
         e.	 Restrictions in use of funds
         f.	 Request for program goals, objectives, activities, performance measurement,
             reporting and evaluation plan
         g.	 Application review criteria
         h.	 Application deadline
         i.	 Proposal instructions
         j.	 Attachments (Applicant profile/forms/certifications, assurances, budget,
             spending plan, etc.)
         k.	 Any additional requirements per the Grants Manual

  5.	 The RFA contains contingency clauses stating that:
         a.	 The agency reserves the right to make changes to the RFA, based on any
             clarifications in the regulations, legislative changes, or funding level
             fluctuations.
         b.	 Funding for the sub-grant is contingent on continued funding from the
             grantor. The RFA does not commit the agency to award a sub-grant.
         c.	 The agency reserves the right to accept or reject any or all applications if the
             agency determines it in the best interest of the agency to do so. The agency
             will notify all applicants of the rejected proposals.
         d.	 The agency reserves the right to issue addenda and/or amendments
             subsequent to the RFA process.




  John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                 20004 ּ (202) 727-6552

                                            49 

       e. The agency shall not, in any event, be liable for any costs incurred in the
          preparation of applications in response to RFA. Applicant agrees that all costs
          incurred in developing the application are the applicant’s sole responsibility.
       f. The agency may conduct pre-award on-site visits to verify information
          submitted in the application, to provide technical assistance, and to determine
          if the proposed facilities are appropriate for the proposed services to be
          provided.
       g. The agency may require the applicant to enter negotiations, and to submit a
          price, technical or other revision of their proposal that may result from
          negotiations.
       h. If there are any conflicts between the terms and conditions of the RFA and
          any applicable Federal or District law or regulation, or any ambiguity related
          thereby, then the provisions of the applicable law or regulation shall control
          and it shall be the responsibility of the applicant to ensure compliance.

6.	 Exceptions to this RFA process and the need for JGA to make sub-grants to private
    organizations on a competitive basis include:
       a.	 The award of the grant designates the sub-grant recipient;
       b.	 The Federal law defines eligibility in such a way that there is only one eligible
           applicant; or
       c.	 There is a recognized coalition of service providers through which the
           broadcast community participation may be obtained in serving the targeted
           clientele.
       d.	 JGA may make an award to an unsolicited proposal if:
                 i.	 The agency has un-obligated funds remaining from the grant due to
                     unusual and unanticipated factors;
                ii.	 The applicant has a program or project that clearly furthers the
                     purpose of the grant;
               iii.	 The proposal reflects proprietary skills or technology that are limited in
                     availability;
               iv.	 The applicant brings to the total grant program matching resources
                     (cash or in-kind) equivalent to at least thirty percent of the grant
                     assistance requested.

7.	 Simultaneous to the NOFA, and before the closing date, the JGA program manager
    organizes an objective review panel to evaluate all funding applications.
       a.	 JGA maintains a list of qualified reviewers from which reviewers may be
           selected, and a letter of interest and an application are on file.
       b.	 JGA nominates reviewers with specialized areas of expertise applicable to the
           particular RFA. A minimum of three reviewers is required to review each
           application. An alternate reviewer should be on hand for back-up purposes.
       c.	 JGA convenes the panel for orientation, review the RFA, grant guidelines and
           special conditions, procedures and scoring instruments.
       d.	 JGA provides the panel members with the RFA applications and review scoring
           tool.
       e.	 JGA monitors the review process. Once completed, the Program Manager shall
           compile scores of each reviewer and determine average score.




John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                               20004 ּ (202) 727-6552

                                            50 

       f.	 Peer review members must attend the peer review session to discuss
           reviewer scores and comments. The peer review sessions must conclude with
           written consensus reviews from the peer review panels

8.	 Recommendations of the review panel are advisory only. Final decision to fund
    programs rest solely with the director of JGA. If the director decides not to fund
    programs based on the review panel recommendations, then the director must
    provide a written justification in the grant records. Such justification shall include a
    strong rationale supported by documentation for the decision to not follow the review
    panel’s recommendation.




John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                               20004 ּ (202) 727-6552

                                          51 

                             ATTACHMENT D: Annual Site visits

     I.   Purpose
This purpose of this policy is to provide guidance on conducting annual site visits. Grant
managers conduct at least one annual site visit to all sub-grantees by the end of the third
quarter of the fiscal year to review their administrative, financial, and programmatic
compliance with their grant award application, agreement, and all terms and conditions.

   II.    Procedure
   Site visits include the following components:
           a.	 Grant managers conduct a grant file desk review to identify any missing or
                incomplete documents and to review programmatic and financial outputs and
                outcomes to date.
           b.	 Grant managers contact the sub-grantee’s programmatic and financial points
                of contact to alert them to the pending site visit; provide a range of available
                dates and times; provide them with a copy of JGA’s site visit assessment tool
                so that they can prepare all necessary documents; and identify any
                outstanding findings from the desk review that will be discussed and ideally
                addressed at the visit.
           c.	 Grant managers ask sub-grantees to arrange the agenda for the visit, which
                must include: a meeting with the programmatic and financial points of
                contact; a sub-grantee grant file review and a review of additional required
                administrative documentation; if possible and appropriate, a discussion with
                front-line project staff and an observational assessment of project activities;
                and an exit interview to discuss findings and recommendations for
                improvement.
           d.	 After the visit, grant managers send sub-grantees a brief written summary of
                their visit including any recommendations for improvement and follow-up on
                requested technical assistance.
           e.	 If significant concerns are identified at the site visit, sub-grantees are asked
                to provide JGA with a written response identifying their plan to address the
                identified concerns within the timeline given, with a series of corrective
                actions outlined if sub-grantees are unable to make sufficient progress.




   John A. Wilson Building ּ 1350 Pennsylvania Avenue, NW ּ Suite 407 ּ Washington, DC
                                  20004 ּ (202) 727-6552

                                              52 

                                                           APPENDIX IV

           OJP RESPONSE TO THE DRAFT REPORT
MEMORANDUM TO:          Troy M. Meyer
                        Regional Audit Manager
                        Office of the Inspector General
                        Washington Regional Audit Office

FROM:                   Maureen A. Henneberg
                        Director

SUBJECT:                Response to the Draft Audit Report, Edward Byrne
                        Memorial State and Local Law Enforcement Assistance
                        Grant Program, Awarded to the Government of the
                        District of Columbia, Justice Grants Administration

This memorandum is in response to your correspondence dated April 28,
2010, transmitting the above draft audit report for the Government of the
District of Columbia, Justice Grants Administration (JGA). We consider the
subject report resolved and request written acceptance of this action from
your office.

The report contains 20 recommendations and $377,506 in questioned costs.
For ease of review, the draft audit report recommendations are restated in
bold and are followed by the Office of Justice Programs (OJP) response.

1. 	   We recommend that OJP work with JGA to ensure compliance
       with the JAG Special Condition which requires JGA to establish
       a trust account to deposit and maintain JAG funds.

       We agree with the recommendation. We will coordinate with JGA to
       ensure compliance with the JAG Special Condition which requires JGA
       to establish a trust account to deposit and maintain JAG funds.

2. 	   We recommend that OJP require JGA to establish procedures
       for the allocation of administrative costs.

       We agree with the recommendation. We will coordinate with JGA to
       obtain a copy of procedures implemented to ensure the proper
       allocation of administrative costs.




                                     53 

3. 	   We recommend that OJP remedy the $34,572 in unsupported
       administrative costs.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $34,572 in unsupported administrative costs.

4. 	   We recommend that OJP remedy the $282,903 in unsupported
       costs from 2006 and 2007 JGA administrative expenses.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $282,903 in unsupported administrative costs from 2006
       and 2007.

5. 	   We recommend that OJP require JGA to implement policies and
       procedures for maintaining an inventory of accountable
       property and equipment that meets the Financial Guide
       requirements.

       We agree with the recommendation. We will coordinate with JGA to
       obtain a copy of policies and procedures implemented to ensure that
       an inventory of accountable property and equipment is maintained,
       which meets the OJP Financial Guide requirements.

6. 	   We recommend that OJP require JGA to implement a formal
       process for reviewing and reconciling grant expenditures in a
       timely manner.

       We agree with the recommendation. We will coordinate with JGA to
       obtain a copy of procedures implemented to ensure that a formal
       process for reviewing and reconciling grant expenditures in a timely
       manner is established.

7. 	   We recommend that OJP remedy unapproved charges of
       $45,295 to the 2006 JAG award number 2006-DJ-BX-0016.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $45,295 in unapproved costs charged to award number
       2006-DJ-BX-0016.

8. 	   We recommend that OJP remedy unapproved charges of $6,700
       to the 2007 JAG award number 2007-DJ-BX-0055.




                                      54 

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $6,700 in unapproved costs charged to award number
       2007-DJ-BX-0055.

9. 	   We recommend that OJP remedy unsupported costs of $4,094
       resulting from payments made to the Court Appointed Special
       Advocates for Children of Washington, D.C.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $4,094 in unsupported costs resulting from payments
       made to the Court Appointed Special Advocates for Children of
       Washington, D.C.

10. 	 We recommend that OJP remedy unallowable costs of $1,500
      resulting from a payment to the Court Appointed Special
      Advocates for Children of Washington, D.C.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $1,500 in unallowable costs resulting from a payment
       made to the Court Appointed Special Advocates for Children of
       Washington, D.C.

11. 	 We recommend that OJP remedy $716 in unsupported costs
      resulting from payments made to the East of the River Clergy
      Police Community Partnership.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $716 in unsupported costs resulting from payments made
       to the East of the River Clergy Police Community Partnership.

12. 	 We recommend that OJP remedy $585 in unsupported costs
      resulting from payments made to the Metropolitan Police
      Department.

       We agree with the recommendation. We will coordinate with JGA to
       remedy the $585 in unsupported costs resulting from payments made
       to the Metropolitan Police Department.

13. 	 We recommend that OJP remedy $1,141 in unsupported costs
      resulting from payments made to the Prisoner Outreach
      Ministry.




                                    55 

     We agree with the recommendation. We will coordinate with JGA to
     remedy the $1,141 in unsupported costs resulting from payments
     made to the Prisoner Outreach Ministry.

14.	 We recommend that OJP require JGA to implement procedures
     to ensure that only supportable expenditures are charged to
     the grant.

     We agree with the recommendation. We will coordinate with JGA to
     obtain a copy of procedures implemented to ensure that only
     supportable expenditures are charged to grants.

15.	 We recommend that OJP require JGA to develop and implement
     policies and procedures outlining the grants solicitation and
     award process. This policy should require JGA’s Director to
     justify award decisions outside of the peer review results.

     We agree with the recommendation. We will coordinate with JGA to
     obtain a copy of policies and procedures implemented to ensure that
     the grant solicitation and award process is properly outlined, and that
     decisions made outside of the peer review results are prepared,
     approved and justified by the JGA Director.

16.	 We recommend that OJP require JGA to develop procedures
     that accurately assess and verify, during their annual site visit,
     the progress of subrecipient accomplishments toward their
     goals and objectives.

     We agree with the recommendation. We will coordinate with JGA to
     obtain a copy of procedures implemented, which ensure that the
     progress of subrecipient accomplishments toward project goals and
     objectives are accurately assessed and verified during the annual site
     visit.

17.	 We recommend that OJP require JGA to create and implement
     site visit procedures that require follow-up on prior JGA
     recommendations.

     We agree with the recommendation. We will coordinate with JGA to
     obtain a copy of site visit procedures implemented to ensure that there
     is follow-up on prior JGA recommendations.




                                     56 

18. 	 We recommend that OJP require JGA to reconcile the 2008 JAG
      reimbursements and retroactively correct and resubmit all
      Financial Status Reports (FSRs) for the 2008 JAG award.

     We agree with the recommendation. We will coordinate with JGA to
     reconcile the 2008 JAG reimbursements, and have been retroactively
     correct and resubmit FSRs for the 2008 JAG award, as necessary.

19.	 We recommend that OJP require JGA to upload the correct
     progress report into the Grant Management System (GMS) for
     the 2009 Recovery Act JAG award.

     We agree with the recommendation. We will coordinate with JGA to
     upload the correct progress report into GMS for the 2009 Recovery Act
     JAG award.

20.	 We recommend that OJP require JGA to implement written
     procedures for testing the accuracy of its Recovery Act reports.

     We agree with the recommendation. We will coordinate with JGA to
     ensure they implement written procedures for testing the accuracy of
     Recovery Act reports.

We appreciate the opportunity to review and comment on the draft audit
report. If you have any questions or require additional information, please
contact Jeffery A. Haley, Deputy Director, Audit and Review Division, on
(202) 616-2936.

cc: 	 Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

     James H. Burch, II 

     Acting Director 

     Bureau of Justice Assistance 


     Amanda LoCicero 

     Budget Analyst       

     Bureau of Justice Assistance 


     Gale Farquhar 

     Program Manager

     Bureau of Justice Assistance 



                                      57 

Richard P. Theis
Assistant Director
Audit Liaison Group
Justice Management Division

OJP Executive Secretariat
Control Number 20100752




                              58 

                                                              APPENDIX V 


      ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to JGA and OJP for their
review and comment. Their responses were incorporated as Appendices III
and IV of this final report. This appendix presents our analysis of their
responses. Recommendations 12 and 19 have been closed and the actions
necessary to close each of the report’s remaining 18 recommendations are
below.


General Comments

    JGA generally concurred with our findings; however, they provided
comments that we address as follows:

      OCA Verification of Recovery Act Reporting: In its response, JGA
advised that they disagree with the statement in the report that indicates
that the Office of the City Administrator “has no procedures in place to verify
the accuracy” of data submitted by subrecipients regarding Recovery Act
grant funds. Rather, JGA indicated that to ensure the data is accurately
reported, they use a layered approach, which involves subrecipients, agency
grant managers, agency ARRA leads, and the OCA. JGA advised that the
OCA specifically checks that each grant report is timely, complete, and that
there are no inconsistencies in the data reported.

      During our audit, the OCA’s ARRA coordinator stated that they do not
have procedures in place to verify or test the accuracy of the data reported.
We agree that the OCA is involved in the layered approach and makes sure
that the report is submitted timely, is complete, and verifies no
inconsistencies exist in the data. However, in our judgment, we do not
believe that the layered approach verifies and tests the accuracy of the data.


Summary of Actions Necessary to Close the Report

      This section presents the status of each recommendation, and the
actions necessary to close the report.

 1.	 Resolved. This recommendation can be closed when we receive and
     review documentation supporting that a trust account has been
     established for the deposit and maintenance of JAG funds.


                                      59 

2.	 Resolved. In its response, JGA advised that they have implemented
    Policies and Procedures to appropriately allocate administrative costs,
    including allocating the salaries and fringe benefit amounts in
    PeopleSoft. This recommendation can be closed once we receive and
    review JGA’s Finalized Policies and Procedures Manual, which outlines
    procedures for the allocation of administrative costs.

3.	 Resolved. This recommendation can be closed when we receive and
    review the documentation that remedies $34,572 in questioned
    administrative costs.

4.	 Resolved. This recommendation can be closed when we receive and
    review the documentation that remedies $282,903 in unsupported
    administrative costs from 2006 and 2007 JAG Grants.

5.	 Resolved. In its response, JGA advised that it has implemented an
    Equipment Purchase Policy and Procedure for both JGA and its
    subrecipients. JGA provided a copy of the Equipment and Capital
    Expenditures Purchase Policy and the related subrecipient Equipment
    and Other Capital Expenditures Purchase List, which requires JGA and
    subrecipients to complete the related forms. The policy indicates that
    JGA will maintain the equipment forms in the respective grant file
    folder and on the JGA shared drive. This recommendation can be
    closed when JGA provides: (1) a copy of its finalized Policies and
    Procedures Manual, which includes the Equipment Purchase Policy and
    Procedure; and (2) a copy of their inventory of Equipment and Capital
    expenditures.

6.	 Resolved. In its response, JGA stated that significant updates were
    made to the grant expenditure review process, policies, and
    procedures to ensure that expenditures are supported and allowable
    per OJP Financial Guide requirements. JGA provided a copy of their
    Reimbursement Request Procedures, which includes a requirement to
    complete a monthly reconciliation of all active grant awards. This
    recommendation can be closed when JGA provides: (1) a copy of its
    finalized Policies and Procedures Manual, which includes the
    Reimbursement Request Policy; and (2) evidence that the monthly
    reconciliation of active grant awards is completed.

7.	 Resolved. This recommendation can be closed when JGA provides
    evidence that unapproved expenditures of $45,295 charged to the
    2006 JAG Award No. 2006-DJ-BX-0016 have been reversed or
    otherwise remedied.

                                    60 

8.	 Resolved. This recommendation can be closed when JGA provides
    evidence that unapproved expenditures of $6,700 charged to the 2007
    JAG Award No. 2007-DJ-BX-0055 have been reversed or otherwise
    remedied.

9.	 Resolved. As part of its response, JGA provided additional supporting
    documentation for 6 of 7 transactions in question, agreeing to work
    with OJP to remedy the 7th transaction, which totaled $1,300. We
    accepted the additional support provided as adequate for two of the
    questioned expenditures: Volunteer - Choice Point in the amount of
    $42.75 and Equipment Rental – Dell Financial Services in the amount
    of $9.18.

    The additional support provided for the four remaining questioned
    expenditures was inadequate and did not support the costs charged to
    the 2008 JAG Grant for the reasons laid out below.

       o	 JGA provided an invoice for the expense of $393.60 in MetLife
          Insurance Costs. The invoice however totaled $378.60 and
          therefore does not support the expenditure amount of $393.60.

       o	 JGA provided a copy of the check for the expense of $100.00 in
          rent paid to the Archon Group, INC. for invoice number 38530.
          As part of its support, JGA also provided a copy of an invoice for
          Rent in the amount of $100.00 charged by the Archon Group;
          however, the invoice number is 38149. Therefore, the invoice
          provided cannot be used to support the expenditure.

       o	 JGA provided an email from the Deputy Director of CASA which
          lays out the portion of each employee’s salary that was paid
          using 2008 JAG grant funds to support the $1,496.81 in
          questioned salaries. However, the support provided does not
          equal the questioned amount. Further, it is unclear from the
          Deputy Director’s email the justification or percentage used to
          calculate the portion of salaries paid with JAG funds. Therefore,
          we could not determine whether the salaries paid were
          adequately supported.

       o	 JGA provided an email from the Deputy Director of CASA which
          lays out the portion of each employee’s salary that was paid
          using 2008 JAG grant funds to support the $751.49 in
          questioned salaries. It is unclear from the Deputy Director’s
          email the justification or percentage used to calculate the portion

                                    61 

          of salaries paid with JAG funds. Therefore, we could not
          determine whether the salaries paid were adequately supported.

    To close this recommendation, JGA should provide supporting
    documentation remedying $4,041.90 in unsupported questioned costs.

10. Resolved. 	This recommendation can be closed when JGA provides
    evidence that unallowable costs of $1,500 charged to the 2008 JAG
    Award No. 2008-DJ-BX-0004 by CASA are remedied.

11. Resolved. 	As part of its response, JGA provided Payroll Journals to
    support the $641.44 in questioned payroll taxes. We could not
    determine through review of these documents what rate was used to
    calculate the percentage of payroll taxes paid through the JAG grant.
    JGA also provided three different receipts for food and beverages
    totaling $87.75 to support the expense of $75.00 for Program Supplies
    for Young Men’s Training Session. We could not determine from these
    receipts why $75.00 was expensed towards the JAG grant and could
    not determine whether a Young’s Men Training Session was in fact
    held. To close this recommendation, JGA should provide supporting
    documentation remedying $716.44 in unsupported questioned costs.

12. Closed.

13. Resolved. 	As part of its response, JGA provided Earnings Statements
    for Joyce Void to support the $990.50 in fringe benefits. Although JGA
    provided an explanation from POM that explained only a portion of
    benefits were paid through the JAG grant, no explanation or rate was
    provided in order to determine whether the amount paid was correct.
    Further JGA provided a spreadsheet of Void’s travel expenses, which
    annotates that the amount of $150.50 is a corrected amount;
    however, provided no justification or support for what the $150.50 is
    comprised of. To close this recommendation, JGA should provide
    supporting documentation remedying $1,141.00 in unsupported
    questioned costs.

14. Resolved. 	As part of its response, JGA provided a copy of their
    Reimbursement Request Procedure, which includes a requirement for
    JGA to review supporting documentation and request additional
    support from subrecipients if necessary. This recommendation can be
    closed when JGA provides a copy of the finalized Policies and
    Procedures Manual, which includes the Reimbursement Request
    Procedure.


                                   62 

15. Resolved.	 As part of its response, JGA provided the policy related to
    the Proposal Evaluation Process, which requires the Director to justify
    award decisions outside of the peer review results. This
    recommendation can be closed once we receive and review JGA’s
    finalized Policies and Procedures Manual that outlines the grants
    solicitation and award process and requires JGA’s Director to justify
    award decisions outside the peer review results.

16. Resolved. 	This recommendation can be closed once we receive and
    review JGA’s finalized Policies and Procedures Manual, which outlines
    procedures requiring JGA to accurately assess and verify during their
    annual site visits the progress of subrecipient accomplishments toward
    their goals and objectives.

17. Resolved. 	As part of its response, JGA provided the Annual Site Visit
    Procedures, which outlines additional requirements for subrecipients if
    significant concerns are identified at the site visit. In such a case,
    subrecipients are asked to provide JGA with a written response
    identifying their plan to address the identified concerns within the
    timeline given, with a series of corrective actions outlined if
    subrecipients are unable to make sufficient progress. We agree that
    JGA will be able to review a subrecipients plan to address the identified
    concerns. However, the policy does not clearly require JGA to follow-
    up on prior recommendations. To close this recommendation, JGA
    should update the Annual Site Visit Procedures to include a step that
    clearly states that JGA is required to follow-up on prior
    recommendations and the subrecipients plan and corrective actions.
    JGA should also provide the finalized Policies and Procedures Manual,
    which includes the updated Annual Site Visit Procedures.

18. Resolved. 	In its response, JGA advised that they completed
    reconciliations of the 2007 and 2008 JAG grants and will submit
    revised FSR’s by June 30, 2010. This recommendation can be closed
    when JGA provides: (1) evidence that the reconciliation was
    performed on the 2007 and 2008 JAG grants, and (2) the revised
    FSR’s.

19. Closed. 	In its response, JGA advised that they tried to upload the
    correct progress report to GMS; however, was unable to do so because
    the prior reports were already approved. JGA indicated that BJA
    requested JGA to resubmit the correct report as a special report to
    GMS. The OIG was able to locate and confirm that the special report
    had been uploaded to GMS and as such this recommendation is closed.


                                    63 

20. Resolved. 	This recommendation can be closed once we receive and
    review JGA’s finalized Policies and Procedures Manual, which outlines
    procedures for testing the accuracy of the Recovery Act reports.




                                   64 

